<html>
<title> - DEPARTMENT OF THE INTERIOR, ENVIRONMENT, AND RELATED AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2011</title>
<body><pre>[Senate Hearing 111-]
[From the U.S. Government Publishing Office]



 
     DEPARTMENT OF THE INTERIOR, ENVIRONMENT, AND RELATED AGENCIES 
                  APPROPRIATIONS FOR FISCAL YEAR 2011

                              ----------                              


                        WEDNESDAY, MARCH 3, 2010

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 9:33 a.m., in room SD-124, Dirksen 
Senate Office Building, Hon. Dianne Feinstein (chairman) 
presiding.
    Present: Senators Feinstein, Reed, Nelson, Tester, 
Alexander, and Murkowski.

                    ENVIRONMENTAL PROTECTION AGENCY

STATEMENT OF HON. LISA P. JACKSON, ADMINISTRATOR
ACCOMPANIED BY BARBARA BENNETT, CHIEF FINANCIAL OFFICER


             opening statement of senator dianne feinstein


    Senator Feinstein. Good morning, ladies and gentlemen. I 
want to welcome you to the Interior Appropriations Subcommittee 
and our hearing on the fiscal year 2011 budget request for the 
United States Environmental Protection Agency, more fondly 
known as the EPA.
    I am very pleased to welcome back Administrator Lisa 
Jackson to testify before the subcommittee. She is joined by 
Chief Financial Officer, Barbara Bennett. Welcome.
    Since this is our first subcommittee hearing of the year, I 
would also like to welcome my colleague, Senator Lamar 
Alexander, the distinguished ranking member of this 
subcommittee, and say how much I am looking forward to working 
with you. We had a good year last year, and there is no reason 
why we will not have one again this year. So welcome and it is 
great to sit next to you.
    Turning to the budget, the administration has requested a 
total of $10.02 billion for the EPA for fiscal year 2011. That 
is a 3 percent cut below fiscal year 2010's enacted level, 
which means that EPA proposes to tighten its belt and reduce 
funding for a number of programs. That recognizes, of course, 
the constraints of these very difficult economic times, at 
least to some extent.
    The budget requests $2 billion for the Clean Water State 
Revolving Fund and $1.29 billion for the Drinking Water State 
Revolving Fund. Overall, that is a 5 percent cut for these very 
popular programs.
    The request further eliminates $157 million for 
congressionally designated water and sewer projects. Again, a 
very popular program.
    The request also reduces funding for the Great Lakes 
Restoration Initiative by $175 million, a 37 percent cut from 
the enacted level, for a total of $300 million.
    Because of these reductions, it might be easy to say that 
EPA's budget is going in the wrong direction, but I would like 
to point out that this subcommittee provided a 35 percent 
increase to EPA's budget for fiscal year 2010. EPA also 
received an additional $7.22 billion from the stimulus act, 
known as the American Recovery and Reinvestment Act (ARRA), 
including $6 billion in funds for water and sewer 
infrastructure alone.
    I really believe that America's water and sewer 
infrastructure is outdated, and I remember the day before 
bottled water when you could literally drink water from the tap 
anywhere in the United States. We have more or less regressed, 
and, therefore, the ability to provide clean water is 
extraordinarily important. We are going to have to see that we 
do not backslide with these cuts. I know we had a large amount 
last year. I guess it was the largest water and sewer 
infrastructure program that we have ever done, but we do not 
want to backslide.
    I would like to commend the administration for shifting 
resources within this tight budget to provide increases for 
other critical priorities, starting with climate change. Most 
importantly, the budget includes a $43 million increase for a 
total of $56 million to move forward with regulation of 
greenhouses gases under the Clean Air Act (CAA). I am looking 
forward to hearing more detail from you, Administrator Jackson, 
on how you would expect these funds to be used.
    I am also very pleased to see that the budget includes $21 
million to implement the greenhouse gas reporting rule that 
this subcommittee directed the agency to promulgate in 2008. 
That is a 24 percent increase. This rule takes effect this year 
and will provide EPA with critical data on some of the Nation's 
largest emission sources.
    I am also pleased to see that the administration has used 
this budget request to address core air and water quality 
improvements. Overall, the request provides a 36 percent 
increase for grants to States to monitor and improve air 
quality, for a total of $309 million.
    The request includes a 20 percent increase for State water 
pollution control grants to improve water quality permitting 
and enforcement, for a total of $274 million.
    And the budget also contains several initiatives to improve 
community cleanup efforts, starting with a 24 percent increase 
for the Brownfields programs for a total of $215 million. For 
me that is a welcome increase.
    Now, when we are talking about numbers, I think it is also 
important that we discuss some of the policy decisions that 
drive this budget because, after all, a budget is in fact a 
policy document. Specifically, I want to talk about the choices 
that EPA is making as it moves forward with the regulation of 
greenhouse gas emissions under the CAA.
    It has been 3 years since the United States Supreme Court 
ruled in Massachusetts v. EPA that EPA has a legal 
responsibility under the CAA to determine whether greenhouse 
gases endanger public health and welfare. Justice Stevens in 
that decision said the following:

    ``Because greenhouse gases fit well within the Clean Air 
Act's capacious definition of air pollutant, we hold that EPA 
has the statutory authority to regulate emissions of such 
gases. EPA can avoid taking further action only if it 
determines that greenhouse gases do not contribute to climate 
change or if it provides some reasonable explanation as to why 
it cannot or will not exercise its discretion to determine 
whether they do.''

    This is the opinion.

    ``Nor can EPA avoid its statutory obligation by noting the 
uncertainty surrounding various features of climate change and 
concluding that it would, therefore, be better not to regulate 
at this time. That EPA would prefer not to regulate greenhouse 
gases because of some residual uncertainty is irrelevant. The 
statutory question is whether sufficient information exists to 
make an endangerment finding.''

    The Court's language was clear and unambiguous. EPA is 
expected to follow the CAA. That means that once EPA issued its 
endangerment finding, the agency was required to regulate 
greenhouse gases under all sections of the CAA that apply, 
which means EPA is now responsible for regulating both mobile 
sources and stationary sources. It is that direct and that 
clear.
    Now, there are those who chose to question EPA's decision 
to follow the law. In particular, a number of my colleagues are 
working to pass legislation that would strip EPA of its 
obligation and ability to determine whether greenhouse gases 
endanger public health and welfare as the CAA requires.
    I think this is the wrong approach. Legislation overturning 
the endangerment finding countermands the Supreme Court's 
landmark decision and contradicts scientific consensus about 
global warming. Once more, it also jeopardizes groundbreaking 
efforts to harmonize EPA's tailpipe emissions standards with 
the Department of Transportation's corporate average fuel 
economy standards, which we call CAFE. I very much believe that 
opposition to EPA's efforts to regulate greenhouse gas 
emissions is generated by uncertainty about how EPA intends to 
follow the law.
    Administrator Jackson, last week you made public additional 
details of how and when EPA plans to address regulatory 
stationary resources, but it is clear that more questions 
remain. I think the most important thing we can do this morning 
is try to answer some of those questions. As EPA explains its 
plans, I believe my colleagues will increasingly realize that 
the agency is proceeding in a deliberate and legally defensible 
fashion, beginning with facilities already subject to 
regulation, tackling only the largest polluters at this time, 
and developing a long-term approach to emissions that is as 
cost effective and flexible as the law permits. So I very much 
look forward to that conversation.
    And I would say one other thing. The alternative to EPA 
proceeding in my view is that the Congress passes a new law, 
and thus far, we have refused or been unable, whichever it is, 
to do so. Therefore, EPA's mandate, given to it by the Court in 
the Massachusetts case, I think remains exceedingly clear.
    So now I would like to turn it over to my distinguished 
ranking member, Senator Alexander, for his opening statements.
    Senator Alexander. Thanks, Madam Chairman, and I look 
forward to working with you this year, just as we did last 
year.
    Ms. Jackson, thank you for being here.
    I will reserve my questions until the proper time, but I 
would like to indicate the areas in which I am most interested.
    In talking with you about the regulation of coal ash, 
specifically, what would be the impact to electricity rates and 
recycling uses if coal ash were regulated as a ``hazardous 
waste.'' I would like to talk about that.
    Two, mountaintop mining. Senator Cardin and I have 
legislation to end the practice of blowing off the tops of 
mountains and dumping the residue in streams, and I want to 
discuss that subject a little bit.
    Clean air. Senator Carper and I have a hearing tomorrow on 
our bill which 11 of us are on, a bipartisan bill, the clean 
air bill which moves forward pretty aggressively on 
SO<INF>X</INF>, NO<INF>X</INF>, and mercury. We call it the 
Clean Air Act Amendments of 2009. I want to make sure that we 
get from EPA all you can give us about what that bill would 
cost, and we will talk more about that. But we need the best 
possible information about what the impact upon ratepayers and 
utilities would be of that bill.
    And then hydraulic fracturing. There is concern that one of 
the great advantages we have right now as a country is suddenly 
we have a lot of new natural gas which is cheaper and lower 
carbon than coal. Well, it is cheaper than most forms of 
electricity and it is lower carbon, half the carbon of coal 
plants, and could be very useful as a bridge to a cleaner 
energy future. The questions about hydraulic fracturing--I want 
to make sure that whatever your conclusions are about the 
relationship between hydraulic fracturing and drinking water 
are peer reviewed so that we can have the maximum amount of 
confidence in the results.
    The chairman and I have a little different view on climate 
change. I agree I am ready to buy some insurance from climate 
change. I think it is a problem and we need to deal with it. I 
support efforts in the Congress to make that the responsibility 
of Congress to deal with rather than the EPA because I think 
the current law does not give EPA the appropriate flexibility 
to deal with it, and I think it is of such major importance 
that it ought to be done by Members of Congress rather than an 
agency.
    But I look forward to your testimony, and those will be my 
questions.
    Senator Feinstein. Thank you very much, Senator.
    Administrator Jackson, if you would like to proceed.
    I would like the subcommittee to know that we will follow 
the early bird rule with 5-minute rounds of questions.
    Please proceed.


               SUMMARY STATEMENT OF HON. LISA P. JACKSON


    Ms. Jackson. Thank you.
    Chairman Feinstein and Ranking Member Alexander and members 
of the subcommittee, thank you for the opportunity to appear 
before you this morning to discuss the EPA's proposed budget 
for fiscal year 2011. This budget fully reflects President 
Obama's and my commitment to environmental protection and to 
ensure that families all across the country have access to 
clean air, clean water, and land.
    Much work has gone into this budget over the last year, and 
I am proud that it supports my key goals for the agency. 
Specifically, this budget is a framework to address climate 
change, improve air quality, assure the safety of chemicals, 
clean up our communities, protect America's waters, expand the 
conversation on environmentalism and environmental justice, and 
continue to build strong State and tribal partnerships.
    I would like to touch on just some of the highlights of 
this budget that will protect human health and the environment 
and lay a new foundation for our prosperity.
    Let me begin by being direct. The science behind climate 
change is settled and human activity is responsible for it. The 
global warming from 1980 to 2009, a little more than 1 degree 
Fahrenheit is statistically significant at the 99.9999 percent 
level. The National Academy of Sciences has concluded it is 
unequivocal that the climate is changing and it is very likely 
that this is predominantly caused by the increasing human 
interference with the atmosphere. These changes will transform 
the environmental conditions on earth unless countermeasures 
are taken. That conclusion is not a partisan one.
    The Senate has twice passed on a bipartisan basis a 
resolution finding that greenhouse gas accumulation from human 
activity poses a substantial risk of increased frequency and 
severity of floods and droughts. And Senator Alexander, you 
cosponsored that resolution. I thank you for that.
    This budget reflects that science and positions EPA to 
address this issue in a way that will not cause an adverse 
impact to the economy. The budget includes a requested increase 
of more than $43 million for efforts aimed at taking action on 
climate change. The bulk of this funding, $25 million, is for 
State grants focused on developing technical capacity to 
address greenhouse gas emissions under the CAA. It also 
includes funding for implementing new emissions standards that 
will reduce greenhouse gas emissions from mobile sources such 
as passenger cars, light-duty trucks, and medium-duty passenger 
vehicles, a rule that I am pleased was supported by the States, 
by the auto industry, and many stakeholders.
    This budget also requests an additional $3.1 million to 
promote work on current and future carbon capture and 
sequestration projects.
    While addressing global warming, this budget also takes 
steps to ensure that the local air quality is good for all, 
including those with respiratory problems. To improve air 
quality, EPA will continue our support of enhanced monitoring 
and enforcement efforts. This budget requests $60 million for 
State grants to address new and expanded national ambient air 
quality standards, as well as new air monitoring requirements. 
Also, this budget provides $6 million to improve air toxics 
monitoring capabilities and address compliance and enforcement 
issues in local communities.
    But toxins are found not only in air emissions but in many 
of the common chemicals that we use every day, and we have an 
obligation to the American people to ensure these chemicals are 
safe. At the end of 2009, EPA released the first-ever chemical 
action plans for four groups of substances. More plans are in 
the pipeline for 2010.
    In this budget, EPA proposes $56 million for chemical 
assessment and risk review, including continued development of 
chemical management plans to ensure that no unreasonable risks 
are posed by new or existing chemicals.
    This budget also promotes new and innovative strategies for 
cleaning up communities to protect sensitive populations such 
as children, the elderly, and individuals with chronic 
diseases.
    It proposes $215 million for Brownfields, an increase of 
$42 million to support planning, cleanup, job training, and 
redevelopment of Brownfields' properties, especially in 
underserved and disadvantaged communities.
    In addition, this budget proposes $1.3 billion for 
Superfund cleanup efforts across the country. Cleanup of 
contaminated properties takes pollution out and puts economic 
opportunity, jobs, in.
    Protecting America's waters is a top priority for EPA due 
to the tremendous impact water quality has on human and 
environmental health and also on economic health. For fiscal 
year 2011, this budget reflects EPA's commitment to upgrading 
drinking water and wastewater infrastructure with a substantial 
investment of $2 billion for the Clean Water State Revolving 
Fund and $1.3 billion for the Drinking Water State Revolving 
Fund. This will initiate approximately 800 clean water and 500 
drinking water projects across America.
    Also, the fiscal year 2011 budget request supports numerous 
national ecosystem restoration efforts. For instance, $300 
million is requested for the Great Lakes, the largest fresh 
water system in the world. There is $63 million for the 
Chesapeake Bay program and continued funding for the San 
Francisco Bay and other important programs. These programs will 
address critical environmental issues such as contaminated 
sediments and toxics, nonpoint source pollution, habitat 
degradation and loss, and invasive species, including the Asian 
carp.


                           PREPARED STAEMENT


    We have also begun a new era of outreach and protection for 
communities historically under-represented in environmental 
decisionmaking. We are building strong working relationships 
with tribes, communities of color, economically distressed 
cities and towns, young people, and others, but this is just a 
start. We must also bolster our relationships with our State 
and tribal partners. These are areas that call for innovation 
and bold thinking, and I am challenging all of our employees to 
bring vision and creativity to our programs.
    Thank you for allowing me to briefly go through the 
highlights of EPA's 2011 budget. I would be happy to answer any 
questions you may have.
    [The statement follows:]

                 Prepared Statement of Lisa P. Jackson

    Chairwoman Feinstein, Ranking Member Alexander, and members of the 
subcommittee, thank you for the opportunity to appear before you to 
discuss the Environmental Protection Agency's (EPA) proposed budget. 
Let me first say that I am particularly proud of the fiscal year 2011 
budget as it reflects President Obama's continuing commitment to 
providing the environmental protection that keeps our communities 
healthy and clean and his commitment to fiscal responsibility. Families 
across America are tightening their budgets; the President has directed 
us to do the same.
    Environmentalism is a conversation that we all must have because it 
is about protecting people in the places they live, work and raise 
families. In fiscal year 2011, EPA is focused on expanding the 
conversation to include new stakeholders and involve communities in 
more direct ways. Over the years, EPA has worked to prevent pollution 
at the source and promoted the principles of responsible environmental 
stewardship, sustainability, and innovation. EPA works to improve and 
encourage sustainable practices and help businesses and communities 
move beyond compliance to become partners in protecting natural 
resources, managing materials more wisely, reducing greenhouse gas 
emissions, and improving the environment and public health. Today's 
challenges require renewed and refocused efforts to address old 
pollution and prevent new pollution. The $10 billion proposed for EPA 
in the fiscal year 2011 President's budget will support key priorities 
during this time of fiscal challenges. These themes are: taking action 
on climate change; improving air quality; assuring the safety of 
chemicals; cleaning up our communities; protecting America's waters; 
expanding the conversation on environmentalism and working for 
environmental justice; building strong State and tribal partnerships; 
and maintaining a strong science foundation.
    These themes are aligned with a Government-wide effort to identify 
near-term, high-priority performance goals. For EPA, such goals include 
reducing Greenhouse Gas (GHG) emissions, improving water quality, and 
delivering improved environmental health and protection to our 
communities. EPA will work toward meeting these goals over the next 18 
to 24 months.
    Madam Chairwoman and members of the subcommittee, let me touch on 
some of the highlights of this budget, both the hard choices and the 
targeted investments that will protect our health and the environment, 
advance creative programs and innovative solutions, and help build a 
new foundation for our prosperity.

                    TAKING ACTION ON CLIMATE CHANGE

    EPA continues to take meaningful, common sense steps to address 
climate change. Making the right choices now will allow EPA to improve 
health, drive technology innovation, and protect the environment; all 
without placing an undue burden on the Nation's economy. The budget 
includes a requested increase of more than $43 million for additional 
regulatory efforts aimed at taking action on climate change. It 
includes $25 million for State grants focused on developing technical 
capacity to address greenhouse gas emissions under the Clean Air Act. 
It also includes $13.5 million in funding for implementing new emission 
standards that will reduce GHG emissions from mobile sources such as 
passenger cars, light-duty trucks, and medium-duty passenger vehicles, 
developing potential standards for large transportation sources such as 
locomotives and aircraft engines, and analyzing the potential need for 
standards under petitions relating to major stationary sources--all 
through means that are flexible and manageable for business.
    A request of $21 million will support continued implementation of 
the Greenhouse Gas Reporting Rule to ensure the collection of high-
quality data. This budget also requests an additional $3.1 million to 
promote work on current and future carbon capture and sequestration 
projects.

                         IMPROVING AIR QUALITY

    To improve air quality we'll continue our support of enhanced 
monitoring and enforcement efforts already underway. We are also 
requesting $60 million for state grants to address new and expanded 
National Ambient Air Quality Standards (NAAQS) as well as air 
monitoring requirements. Through the Healthy Communities Initiative 
(HCI) we will provide $6 million to improve air toxics monitoring 
capabilities and address compliance and enforcement issues in 
communities. I will have more to say both about the HCI and our efforts 
to improve air quality momentarily.

                    ASSURING THE SAFETY OF CHEMICALS

    Assuring the safety of chemicals in our products, our environment 
and our bodies is of utmost concern, as is the need to make significant 
and long-overdue progress in achieving this goal. Last year, I 
announced principles for modernizing the Toxic Substances Control Act. 
At the end of 2009, we released our first ever chemical action plans 
for four groups of substances, and more plans are in the pipeline for 
2010. Using our streamlined process for Integrated Risk Information 
System assessments, we will continue strong progress toward rigorous, 
peer-reviewed health assessments. Additionally, we will continue focus 
on high-profile Integrated Risk Information System assessments on 
dioxins, arsenic, formaldehyde, trichloroethylene and other substances 
of concern. We are proposing $56 million for chemical assessment and 
risk review, including continued development of chemical management 
plans, to ensure that no unreasonable risks are posed by new or 
existing chemicals. Further, this budget invests $29 million in the 
continuing effort to eliminate childhood lead poisoning. We will 
implement the Renovation, Repair and Painting Rule to address lead 
hazards created by renovation, repair and painting activities in homes 
and child occupied facilities with lead based paint. In fiscal year 
2011, $6 million would support national efforts to mitigate exposure to 
high-risk legacy chemicals, such as mercury and asbestos.

                      CLEANING UP OUR COMMUNITIES

    Among our highest priorities in this budget are investments in new 
and innovative strategies for cleaning up communities, especially to 
protect sensitive populations, such as children, the elderly, and 
individuals with chronic diseases. We will continue to focus on making 
safer, healthier communities. To clean up our communities, we're 
proposing investments that will get dangerous pollution out, and put 
good jobs back in.
    This budget proposes $215 million for Brownfields, an increase of 
$42 million to support planning, clean-up, job training and 
redevelopment of Brownfields properties, especially in underserved and 
disadvantaged communities. EPA encourages community development by 
providing funds to support community involvement and is adding area-
wide planning efforts to enhance the positive impacts associated with 
the assessment and clean-up of Brownfields sites. Through area wide 
planning, particularly by focusing on lower income communities 
suffering from economic disinvestment, Brownfield properties can be 
redeveloped to help meet the needs for jobs, housing, and 
infrastructure investments that would help rebuild and revitalize these 
communities, as well as identify opportunities to leverage additional 
public and private investment. We'll also provide funding for 
assessment and clean-up of underground storage tanks and other 
petroleum contamination on Brownfields sites.
    In addition, we're proposing $1.3 billion for Superfund clean-up 
efforts across the country. We will continue to respond to emergencies, 
clean up the Nation's most contaminated hazardous waste sites, and 
maximize the participation of liable and viable parties in performing 
and paying for clean-ups. EPA will initiate a multiyear effort to 
integrate and leverage our land clean-up authorities to address a 
greater number of contaminated sites, accelerate clean-ups, and put 
sites back into productive use while protecting human health and the 
environment. The new Integrated Cleanup Initiative represents EPA's 
commitment to bring more accountability, transparency and progress to 
contaminated site cleanups.
    This budget also requests $27 million for the HCI which covers 
clean, green, healthy schools; community water priorities; 
sustainability and the air toxics monitoring in at risk communities I 
mentioned earlier. Six million dollars is requested for the Clean, 
Green, and Healthy Schools Initiative to support States and communities 
in promoting healthier school environments, to broaden the 
implementation of EPA's existing school environmental health programs 
including asthma, indoor air quality, chemical clean out, green 
practices, enhanced use of Integrated Pest Management, and safe 
handling of PCB-containing caulk. EPA will work in partnership with the 
Departments of Education and Health and Human Services to accomplish 
this initiative.
    HCI also includes an increase of $5 million for and Smart Growth 
work, including the Interagency Partnership for Sustainable Communities 
with the Departments of Transportation and Housing and Urban 
Development. The Smart Growth program works with Federal partners and 
stakeholders to minimize the environmental impacts of development.
    These modest investments will make real, measurable, improvements 
in a small number of pilot communities. In addition, the strategies 
that will be developed could be used in communities across the Nation.

                      PROTECTING AMERICA'S WATERS

    Protecting America's waters is a top priority and EPA has an 
ambitious vision for the Nation's waters in the years ahead. Water 
quality has tremendous impacts on quality of life, on economic 
potential, and on human and environmental health. In fiscal year 2011, 
EPA continues its commitment to upgrading drinking water and wastewater 
infrastructure with a substantial investment of $2 billion for the 
Clean Water State Revolving fund and $1.3 billion for the Drinking 
Water State Revolving Fund. EPA, the States, and community water 
systems will build on past successes while working toward the fiscal 
year 2011 goal of assuring that 91 percent of the population served by 
community water systems receives drinking water that meets all 
applicable health-based standards. EPA's partnership investments will 
allow States and tribes to initiate approximately 800 clean water and 
500 drinking water projects across America, representing a major 
Federal commitment to water infrastructure investment. These 
investments send a clear message to American taxpayers that our water 
infrastructure is a public health and environmental priority.
    The fiscal year 2011 budget request supports national ecosystem 
restoration efforts; $300 million is requested for the Great Lakes, the 
largest freshwater system in the world. This multiagency restoration 
effort represents the Federal Government's commitment to significantly 
advance Great Lakes protection, with an investment of more than $775 
million over 2 years. The focus is on addressing critical environmental 
issues such as contaminated sediments and toxics, nonpoint source 
pollution, habitat degradation and loss, and invasive species, 
including Asian carp.
    We're requesting $63 million for the Chesapeake Bay program 
including increased funding to implement President Obama's Chesapeake 
Bay Executive Order. We are accelerating implementation of pollution 
reduction and aquatic habitat restoration efforts to ensure that water 
quality objectives are achieved as soon as possible. A centerpiece of 
EPA's fiscal year 2011 Chesapeake Bay activity is the implementation of 
the Nation's largest and most complex Total Maximum Daily Load (TMDL) 
for the entire Chesapeake Bay watershed. The TMDL will involve 
interstate waters and the effects on water quality from the cumulative 
impact of more than 17 million people, 88,000 farms, 483 significant 
treatment plants, thousands of smaller facilities, and many other 
sources in the 64,000 square mile watershed.
    In addition, the budget request includes $17 million for the 
Mississippi River Basin. EPA will work with the Department of 
Agriculture and States to target nonpoint source reduction practices to 
reduce nutrient loadings. EPA will also work with other Federal 
partners to target two high-priority watersheds in the Mississippi 
River Basin to demonstrate how effective nutrient strategies and 
enhanced partnerships can address excessive nutrient loadings that 
contribute to water quality impairments in the basin and, ultimately, 
to the hypoxic conditions in the Gulf of Mexico.
    The budget also proposes $10 million for green infrastructure 
research, more than doubling research that offers the potential to help 
us transition to more sustainable water infrastructure systems.

    EXPANDING THE CONVERSATION ON ENVIRONMENTALISM AND WORKING FOR 
                         ENVIRONMENTAL JUSTICE

    We have begun a new era of outreach and protection for communities 
historically underrepresented in environmental decision making. We are 
building strong working relationships with tribes, communities of 
color, economically distressed cities and towns, young people and 
others, but this is just a start. We must include environmental justice 
principles in all of our decisions. This is an area that calls for 
innovation and bold thinking, and I am challenging all of our employees 
to bring vision and creativity to our programs. The protection of 
vulnerable subpopulations is a top priority, especially with regard to 
children. Our revitalized Children's Health Office is bringing a new 
energy to safeguarding children through all of our enforcement efforts. 
We will ensure that children's health protection continues to guide our 
path forward. The increased Brownfields investments I mentioned will 
target underserved and economically disadvantaged neighborhoods--places 
where environmental cleanups and new jobs are needed.
    We're also proposing $9 million for Community Water Priorities in 
the Healthy Communities Initiative; funds that will help underserved 
communities restore urban waterways and address water quality 
challenges.
    Furthermore, the fiscal year 2011 President's budget includes 
approximately $615 million for EPA's enforcement and compliance 
assurance program. This request reflects the administration's strong 
commitment to vigorous enforcement of our Nation's environmental laws 
and ensures that EPA will have the resources necessary to maintain a 
robust and effective criminal and civil enforcement program and pursue 
violations that threaten vulnerable communities.

             BUILDING STRONG STATE AND TRIBAL PARTNERSHIPS

    Another hallmark of this budget is strengthening our State and 
tribal partnerships. The budget requests $1.3 billion in categorical 
grants for State and tribal efforts. State and local governments are 
working diligently to implement new and expanded requirements under the 
Clean Air Act and Clean Water Act. New and expanded requirements 
include implementation of updated National Ambient Air Quality 
Standards (NAAQS), for the first time addressing Greenhouse Gas (GHG) 
emissions, and addressing growing water quality issues, such as 
nutrient pollution. This increase includes the $25 million for 
greenhouse gas permitting activities already mentioned, as well as 
increases of $45 million for core work under air quality management 
grants and $15 million for air monitors, all of which I mentioned 
previously.
    We are also requesting $274 million, a $45 million increase more 
than 2010, to help States enhance their water quality programs. New 
funding will strengthen the base State, interstate and tribal programs, 
address new regulatory requirements, and support expanded water 
monitoring and enforcement efforts.
    The request also includes increased support for our tribal 
partners. In order to help tribes move beyond capacity building to 
implementation of their environmental programs, $30 million is budgeted 
for a new competitive Tribal Multimedia Implementation grant program. 
These grants are tailored to address an individual tribe's most serious 
environmental needs through the implementation of Federal environmental 
programs, and will build upon the environmental capacity developed 
under the Tribal General Assistance Program (GAP). To further enhance 
tribal capacity, this budget also includes an additional $9 million for 
GAP grants for a total of $71 million. GAP grants develop capacity to 
operate an environmental program, and support a basic environmental 
office or circuit rider that can alert the tribe and EPA to serious 
conditions that pose immediate public health and ecological threats.

                MAINTAINING A STRONG SCIENCE FOUNDATION

    In fiscal year 2011, the range of research programs and initiatives 
will continue the work of better understanding the scientific basis of 
our environmental and human health problems We are requesting a science 
and technology budget of $847 million to enhance--among other things--
research on endocrine disrupting chemicals, green infrastructure, air 
quality monitoring, e-waste and e-design, and to study of the effects 
of hydraulic fracturing on drinking water. It's important to highlight 
that most of the scientific research increase will support additional 
Science to Achieve Results (STAR) grants and fellowships to make 
progress on these research priorities and leverage the expertise of the 
academic research community. The $26 million increase for STAR includes 
$6 million for STAR fellowships in support of the President's priority 
for Science, Technology, Engineering, and Math investments. This 
reflects a near doubling of the STAR fellowships program. This budget 
also supports the study of computational toxicology, and other priority 
research efforts with a focus on advancing the design of sustainable 
solutions for reducing risks associated with environmentally hazardous 
substances.
    These are the highlights of a budget that reduces costs while 
strengthening American communities and boosting the green economy. 
Responsible, targeted investments will protect our health and the 
environment, advance creative programs and innovative solutions, and 
help build a new foundation for our prosperity. Thank you again for 
inviting me to testify today and I look forward to answering your 
questions.

    Senator Feinstein. Thank you very much, Madam 
Administrator.
    You sent a letter to a group of Democratic Senators on 
February 22 that says EPA is finalizing two actions to lay out 
how it plans to move forward: one action to clarify the 
schedule, the other the so-called Tailoring Rule to define 
entities EPA would initially regulate. Could you briefly walk 
us through your timeline and explain what actions you plan to 
take?

                       CLEAN AIR ACT--REGULATIONS

    Ms. Jackson. Certainly, Chairman, yes. The letter on 
February 22, first, clarifies that EPA expects that no source 
will be required to get a CAA permit to cover greenhouse gas 
emissions in calendar 2010. So there will be no CAA regulation 
essentially of stationary sources--that is an important 
distinction--this calendar year.
    Also, it clarifies that we will soon put out a memo that 
says that the first potential for regulation of stationary 
sources will be early 2011 when the car rules become effective. 
If you read the CAA, as you mentioned in your opening 
statement, it is the first regulation of greenhouse gases that 
then triggers regulatory requirements for greenhouse gases 
under other areas of the CAA.
    We also talk about the need to respond to the numerous 
comments we have gotten on the Tailoring Rule, many from States 
who say, listen, we want to get involved in CAA regulation. We 
know it is coming. We know that even if there is new 
legislation, States will need to get ready for their 
significant role under the CAA. But we need more time and we 
need resources. That is why the budget includes the $25 million 
and resources for States.
    My letter also talks about phasing in, even more slowly 
than we originally anticipated, regulation of stationary 
sources, starting with what we call ``anyway'' sources, those 
sources that need what, is called a PSD permit, no matter what. 
We would then move to the very largest sources and clarify that 
over a 5-year period between next year and 2016, we would phase 
in sources so that, over time, you move to regulation of a 
larger and larger universe of sources.

                             TAILORING RULE

    Senator Feinstein. Two other quick questions I want to get 
to in the 5 minutes.
    What percent of emissions do you believe will come under 
some form of regulation during 2011?
    Ms. Jackson. It is a little difficult until we finalize the 
Tailoring Rule to be specific, but let me give you a couple of 
numbers I think are helpful. Sixty-seven percent of U.S. 
stationary source emissions come from sources that emit more 
than 100,000 tons per year of CO<INF>2</INF> equivalents. 
Seventy percent come from sources larger than 50,000 tons, and 
75 percent come from sources that emit more than 25,000 tons. 
So you get fully two-thirds of our stationary source emissions, 
if you look at the largest sources, those more than 100,000 
tons.
    Senator Feinstein. Thank you very much.
    As you say in this letter, EPA plans to start phasing in 
permitting requirements for sources that are substantially 
higher than the 25,000 tons. Your threshold that you discuss in 
your draft Tailoring Rule--how do you define ``substantially?''
    Ms. Jackson. We have not selected another number. I am 
clear in the letter that we are in the middle of rulemaking, 
and so I am somewhat constrained until we finalize a rule or 
set of rules. But I believe, based on the almost 500,000 
comments we have received and as I said, many from States that 
there may be a need to phase in and look at a different number 
than 25,000 as being our definition of what are significant 
sources.
    Senator Feinstein. But if I understand what you are saying 
then, for the near future, in terms of the next 2 years, you 
are going to be dealing with sources, at least 75,000 or more 
than 100,000, but they would all be more than 75,000.
    Ms. Jackson. That is absolutely true. It will probably be 
at least 2 years before we would look at something like, say, a 
50,000 threshold.
    Senator Feinstein. Thank you.
    Senator Alexander.

                                COAL ASH

    Senator Alexander. Thank you.
    Administrator Jackson, I would like to ask you some 
questions about coal ash. You know, in Tennessee, we had a 
problem in the Tennessee Valley Authority at Kingston, a big 
coal ash problem, and that raised the issue of who ought to 
regulate it. Am I correct? Today EPA does not regulate coal ash 
but is in the process of considering whether to regulate coal 
ash. Is that correct?
    Ms. Jackson. That is correct.
    Senator Alexander. And I am correct that a part of that 
consideration is whether you consider it hazardous waste.
    Ms. Jackson. That is correct, Senator.
    Senator Alexander. When that regulation comes down, we will 
know whether you are going to regulate it, which I think you 
should do, and whether it should be hazardous waste, which I 
think it should not be. And I wanted to ask you a few questions 
about that and get your thought on it. I will go ahead and ask 
the questions and then sit back and give you time to answer.
    About half, 45 percent, of 136 million of annual tons of 
coal ash is recycled, about half of it. Most of that, a lot of 
it, maybe all of it comes from coal plants. Is that what we are 
talking about? Let us say all that comes from coal plants that 
produce 50 percent of America's electricity. This recycled coal 
ash ends up in everything from high-strength concrete for 
buildings and roads, structural fills, embankments, wallboard, 
asphalt filler, grout, paint procedures, blasting, sanding, 
grit, roofing products. It is a lot of stuff, and it is 
recycled in a way that gets rid of it, which is important, and 
makes it useful and, in the process, gives it some value and 
that helps keep down electric rates, which is important for 
jobs and heating our homes.
    Now, yesterday an entrepreneur came by to see me, and I 
will not give his name. You know him, I suspect. But he brought 
me these limestone pellets, and he claims that he is able to 
turn CO<INF>2</INF> from smokestacks into limestone, which he 
then can use for concrete or aggregate. Of course, if he can 
actually do that in a commercially viable way, that would be, I 
guess, the holy grail of electricity and make the job of 
dealing with carbon a lot easier because 40 percent of carbon 
comes from coal plant smokestacks.
    The first question would be if this stuff, coal ash turned 
into limestone, is regulated as a hazardous waste, would that 
have a chilling effect on entrepreneurs such as the one who 
came by to see me and make it more difficult for him to develop 
this technology to get rid of carbon on coal plants, which is 
something that we all hope happens?
    I know enough about this, having been in business--if you 
have a business and you buy a plant that is on a ``former 
hazardous waste site'', you have a real problem with potential 
liability. Let us say you have a food processing plant on a 
site that used to be a hazardous waste site. You worry about 
whether somebody is going to sue you and shut your plant down 
and slow down your operation.
    So what I am asking you to consider carefully is not 
whether EPA should regulate coal ash. I think you should. I 
think it is better that you do. But I think it is better that 
you not call it a hazardous waste because if you do and if half 
of it is used for products like this and if they turn out to be 
commercially viable, this product or some other product that 
someone invents that finds a way to remove carbon from coal 
plant smokestacks is exactly what we are hoping happens in our 
country over the next several years and having a chilling 
effect on the development of this technology would be a big 
mistake.
    So I wanted to ask your thoughts about that whole subject 
and where you are in the regulatory process.
    Ms. Jackson. Thank you, Senator. First, thank you for 
recognizing that there probably is a need for an increased 
regulatory role at the Federal level. I think the Kingston 
spill and subsequent coverage really worried people about the 
safety of these big impoundments, as well as what might be 
leaching from them. So let me start there.
    Your first question was about essentially a stigma. It is 
fair to say that many have speculated that a hazardous waste 
designation would stigmatize a material that is clearly being 
reused in significant amounts; I absolutely agree with your 
numbers. I have to preface all this by saying there is no 
proposed rule out yet. Please understand we are still working 
on it.
    The vast majority of uses are fine. They are actually to be 
encouraged because they are in places where the material is 
essentially not allowed to be subject to leaching.
    The concern we have seen with this material are twofold. 
Number one, very large pounds that are very wet and full of 
very heavy materials so that structurally that material can--
the impoundment can break and you can have the kind of 
environmental catastrophe you have down in Kingston. And we are 
all working, and I have told you how hard the State of 
Tennessee and how much I appreciate their partnership in that 
cleanup.
    And the second issue is what leaches out of the bottom of 
those impoundments because what we have found is that this 
material is subject to leaching, and most of those impoundments 
are wet impoundments. We realize that you put that much stuff 
in those impoundments and let water leach through it, you are 
going to see impacts to groundwater and those are documented.
    So our primary concern is addressing those issues while not 
having the unintended consequence of shutting down reuse in an 
industry that we primarily agree with. There are some 
relatively minor reuses that might be of concern where you take 
large amounts of the same material and use it for fill, sir. 
But by and large, the reuse of it in wallboard, in concrete is 
admirable and to be encouraged.
    So that is what we are trying to do.
    I do not necessarily agree that saying that the material in 
a landfill as waste stigmatizes the material that is not in a 
landfill, but that is something that will certainly be subject 
to much comment, I would imagine, during the rulemaking 
process.

                                 CARBON

    Senator Alexander. I thank you for such a good answer. I 
found this a fascinating possibility because, Madam Chairman, I 
have never suspected--I am not a scientist--that you could 
capture and sequester enough carbon from coal plants to make 
that all work. I have always thought somebody would come along 
with one or two or three or four ways to get rid of carbon in 
the same way we do sulphur, nitrogen, and mercury. I just want 
to be real careful that any Federal action we take does not 
discourage, that we actually should be encouraging it.
    Senator Feinstein. This is a building material?
    Senator Alexander. This is limestone. So what this 
entrepreneur says--and I will let him speak for himself in the 
marketplace--is that he has turned CO<INF>2</INF> coming out of 
the smokestack into limestone. It is then used in concrete or 
in aggregate, and according to him, it has been through the EPA 
and it does not leach. So hopefully, there will be four or five 
inventions that do a similar thing.
    Senator Feinstein. Yes.
    Senator Alexander. In fact, the cost of doing this would be 
substantially less than some other ways of dealing with carbon.
    You know, if you are buying a product and it is labeled 
``hazardous waste,'' all of a sudden, your lawyers come in and 
say, wait a minute. We better not use this in this house or 20 
years from now somebody will come and say it is like asbestos 
and we will all go to jail or we will all be broke.
    Senator Feinstein. Thank you very much, Senator.
    Senator Alexander. Thank you for your time.
    Senator Feinstein. It was very interesting.
    Senator Nelson.

                     CLEAN AIR ACT--ETHANHOL BLENDS

    Senator Nelson. Thank you, Madam Chairman.
    Administrator Jackson, thanks for coming by. I was glad to 
have the opportunity to meet with you yesterday. One of the 
points that we talked about was the EPA's pending decision to 
waive the CAA for ethanol blends and gasoline up to 15 percent. 
And as you understand, as we discussed, it is critical that the 
tests on engine compatibility be completed on time in order to 
provide stability to the ethanol industry. Without the increase 
in blends, advanced technologies may not materialize that will 
allow commercial-scale cellulosic ethanol to develop and allow 
high-tech efficiency improvements to continue even in the corn-
to-ethanol process.
    As such, can you confirm that EPA anticipates the 
Department of Energy (DOE) will finish its testing this April 
and get some additional detail from you on the next steps the 
agency would take towards a proposed decision increasing 
ethanol blends in gasoline?
    Ms. Jackson. Thanks, Senator.
    I did confirm, after our meeting yesterday, that the DOE 
testing remains on schedule. So when we last talked about this 
publicly, we said that we believed those tests would finish up 
in spring, April or May time frame. As of December, only 2 of 
19 tests were completed. That did not seem to be enough 
information on which to make a waiver decision. We expect that 
once we get that additional data--and it will be publicly 
available--then EPA will be in a position to move toward a 
final decision on waiver. Late summer is the time period.
    Senator Nelson. So at this point, you think things are on 
track with the time frame that we talked about.
    Ms. Jackson. Yes. We did double check that.

                             ETHANOL BLENDS

    Senator Nelson. We also spoke about the concerns regarding 
the impact that increased ethanol blends would have on legacy 
vehicles and small motors. During our talks, I cited the 
example of Brazil which has a blend level defined in the range 
of E-20/25. In the 30-plus years of their use of mid-level 
blends, there have been no reported negative impacts on motors 
used in the Brazilian fleet, as well as small engines used to 
equip motorboats, lawn mowers, and chain saws.
    I really, as we discussed, hope that you will look very 
closely and the agency will look closely to the successes of 
Brazil while making your final determination on the E-15 blend 
so we can incorporate the success they have had towards energy 
and efficiency and bring that back to America as well, as we 
discussed.
    Ms. Jackson. Thanks, Senator. As you requested, we are 
passing that data and that information on to the technical 
staff who are reviewing this matter.

                    SUPERFUND SITE--OMAHA LEAD SITE

    Senator Nelson. I think it would be helpful to have that 
other experience in the process of looking at the situation 
from our standpoint. We do not have to reinvent all experience 
if we can learn from others. So I appreciate your looking at 
that.
    I was also pleased to see in your written testimony the 
continued commitment to Superfund cleanup across the country. 
As you know, the city of Omaha has the largest residential 
Superfund site in the country. The so-called Omaha Lead Site, 
as it is known, contains more than 15,000 yards contaminated 
with dangerous levels of lead, posing a significant health 
risk.
    The EPA, up until now, has worked very closely with the 
city of Omaha. They have addressed more than 5,600 yards, and 
your staff at Region 7 has been doing an outstanding job with 
all interests involved. And I am certain, as we discussed, this 
cooperation, this excellent working together will continue 
under the new regional administrator, Karl Brooks, with whom we 
met recently.
    My question today is just to confirm that EPA's budget 
request will enable the agency to continue excavating these 
contaminated yards in implementing the 2009 record of decision.
    Ms. Jackson. Yes, Senator, that is absolutely right. We 
remain committed. It is a top priority for the Superfund 
program.

          INTEGRATED RISK INFORMATION SYSTEM (IRIS) ASSESSMENT

    Senator Nelson. I appreciate that.
    And then finally, I know we touched very briefly on the 
arsenic issue, but I wanted to follow up regarding a letter I 
wrote you back in October. We discussed EPA's draft--IRIS--
assessment. To be brief, the original arsenic rule set the 
arsenic limit for tap water at 10 parts per billion in 2001, 
put a lot of major, new costs on small communities across 
Nebraska. We have significant numbers of small communities 
under 2,500 and under 1,500 and under 750 in population.
    Now the new IRIS assessment is proposing even more 
stringent regulations which would result in even additional 
major consequences. We obviously do not want contaminated 
water, but if we are not careful in our efforts here--and I 
hope that you will look at Dr. Samuel Cohen from the University 
of Nebraska's Medical Center, a leading scientist on this low-
dose arsenic exposure--because if we continue to press smaller 
communities, not just in Nebraska, but I would imagine in 
Montana and elsewhere, on these stringent requirements, the 
communities will shut down their municipal water supply and go 
to individual wells and drink the same water without any 
oversight by EPA. So we have to have a rational approach to 
this that keeps in mind good health but good common sense as it 
relates to the economics of communities.
    Ms. Jackson. Thank you, Senator. I could not agree more. 
Common sense needs to always be in the front of our minds as we 
make regulation. I pride myself on it.
    Dr. Cohen's research--we have it. We are providing the 
entire IRIS risk assessment back to our scientific advisory 
board. They peer reviewed the draft, but this is such an 
important issue that we have asked them to conduct a focused 
review of our response to their review. Dr. Cohen's research 
will be provided as well. We are being as careful as we can.
    Let me just say for the record that as EPA Administrator, I 
am absolutely committed to helping small communities deal with 
the conundrum that they find themselves in, not to simply put 
requirements out knowing that the day we do, those communities 
find themselves choosing between having enough money to buy 
food and pay the water bill.
    Senator Nelson. Well, I know with your leadership and Karl 
Brooks' leadership, we will see less command and control 
situations and more partnership relationships develop so that 
we can solve these problems together rather than create 
additional burdens on communities' budgets.
    Thank you, Administrator, and thank you, Madam Chairman.
    Senator Feinstein. Thank you very much, Senator Nelson.
    Senator Reed.

                     STATEMENT OF SENATOR JACK REED

    Senator Reed. Thank you very much, Madam Chairman.
    And I want to thank you, Administrator Jackson, and the 
chairman for the great support you have given to the Clean 
Water and Drinking Water State Revolving Funds. These are 
absolutely critical to my State and to many other States, not 
only in terms of investment in environmental quality, but also 
we have an unemployment rate of 13 percent and all this 
eventually translates to people working. In fact, I had the 
privilege to accompany Curt Spalding to the Fields Point sewage 
treatment facility, and they are doing a major renovation and a 
major project. Seventy-five people are at work.
    And by the way, that was a wise choice, making Curt an 
administrator of Region 1. You and the President should be 
commended.
    Ms. Jackson. Common sense prevails.

                CLEAN WATER AND DRINKING WATER REDUCTION

    Senator Reed. I agree.
    But the need is so huge. Just yesterday I had the mayor of 
Newport, Rhode Island, and they are facing a $180 million need 
for water infrastructure improvements. They are in negotiations 
with EPA and they understand they have to make water pollution 
reductions. But I know you have done a lot, but it is a little 
bit concerning to me that the budget calls for a $100 million 
reduction in both the Clean Water and Drinking Water State 
Revolving Funds.
    So could you comment on that difficult choice and also 
whether there is an opportunity, perhaps in another recovery 
package, to put more funds in?
    Ms. Jackson. Thank you, Senator, and thank you for the kind 
words about Curt. He is great and so is Karl Brooks in Region 
7.
    You are absolutely right. There were some tough choices 
that had to be made. One of them in the budget was trying to 
balance all the priorities that States are facing. I have to 
say that one of the pieces of good news has been the State 
reaction and responsibility and accountability under the ARRA. 
As you know, States got $6 billion of ARRA funding for water 
projects, and they also got a requirement that they had to have 
that money under contract, absolutely under contract by 
February 17 of this year. Every single State made it. So I 
think it is a testament to two things: the fact that in the 
States folks are working hard and that they understand the need 
for clean water, both economically and environmentally and from 
a public health perspective. But they also need a lot more, as 
you point that out in your remarks.
    So I would say that between spending the ARRA money and the 
significant amount of money that is in this budget, it is still 
twice what we saw at the end of the last administration, a real 
acknowledgement that now is not the time to cut those funds, 
that they are tied to jobs and create jobs. I believe we have 
struck a nice balance.
    I have to point out there is also money in this budget, a 
significant increase, in money for the State water staff and 
air staff, by the way, because we know right now the other 
problem that States are facing is they are trying to balance 
their budgets. And we are hoping that they do not do that by 
laying off State environmental workers because they are the 
folks who write the permits and do the work to get these funds 
on the street.
    Senator Reed. Thank you, Madam Administrator.
    One other point I would make is it strikes me that the 
delivery system for the State revolving funds has been in 
existence for a long time and they have the capacity to get the 
money out. There are other State programs across the country 
that have not been as successful, but this is one where there 
is a very good delivery system. Again, I think your comments 
indicate an investment in this is not only appropriate and 
necessary, but also it is a pretty efficient way to deliver 
resources and get people to work. So I thank you for that 
effort.
    Ms. Jackson. Thank you, Senator Reed.

                          ENDANGERMENT FINDING

    Senator Reed. There is an issue that we will confront 
shortly, which a Congressional Review Act motion to essentially 
withdraw or compel you to withdraw your endangerment finding on 
greenhouse gases. I understand that other countries around the 
globe have recognized this, for example, China. And then other 
countries are suggesting that it is not a problem, like Saudi 
Arabia. I think if I was producing lots of petroleum, I would 
also not consider it to be a problem.
    But can you comment on the consequences if we do not 
address this issue as you propose?
    And one other point I would suggest is that what is most 
interesting to me in one respect is that this issue of climate 
change is now being debated seriously as a national security 
problem by defense officials, by planners within the Department 
of Defense (DOD), and something that is causing them grave 
concern. So I think we might--well, I know we will benefit from 
your comments.
    Ms. Jackson. Thank you, Senator.
    The Congressional Review Act resolution asks Senators 
essentially to invalidate EPA's finding that greenhouse gases 
endanger public health and welfare. It is, you know, 5-10 lines 
long. That is all it says, that Congress says that the 
endangerment finding is not true.
    Senator Reed. Based on our scientific expertise.
    Ms. Jackson. Based on something.
    I think that simple statement is contrary to multiple lines 
of scientific inquiry and the belief of the vast majority of 
climate scientists and people who work in the field that not 
only is the climate changing, the amount of greenhouse gases in 
our atmosphere is continuing to increase. That interference in 
the atmosphere is man-made, man-induced, and something needs to 
be done.
    That is what EPA's endangerment finding says, and I think 
for this country, for our U.S. Senate, to take that position in 
the year 2010 would, indeed, be an enormous step backwards for 
science and the results of decades of scientific inquiry.
    You asked about national security considerations. The 
endangerment finding in and of itself has no regulation with 
it, but it will unlock the key to, first, mobile source 
regulation and later, as I discussed in my colloquy with the 
chairman, common-sense, step-wise regulation. We do know that 
our national security is threatened and imperiled by a reliance 
on oil that we import. Well more than 50 cents of every dollar 
we spend for gasoline is actually for gasoline that is not 
produced here in our country, and we need to find a different 
method to power our transportation system. I think Americans 
agree with that. But more importantly, DOD, CIA, and NSA people 
who worry about our national security, say this is a real 
threat.
    Finally, I would be remiss if I did not bring up the 
opportunity for tremendous jobs in dealing with climate 
pollution. In dealing with the negative impacts, you have a 
tremendous benefit, which is we create opportunities. I was 
taken by your example, Senator Alexander, of the limestone 
pellets. That is what always happens. When it is clear that 
there is a regulatory imperative, America always steps in and 
finds new ways to deal with the problem. It happened with 
catalytic converters on cars. It happened with scrubbers on 
powerplants. I have no doubt in my mind as an engineer that the 
engineers in this country will rise to the challenge and create 
an entire industry around dealing with carbon dioxide 
pollution.
    Senator Reed. Thank you, Madam Administrator.
    Thank you, Madam Chairman.
    Senator Feinstein. Thank you very much, Senator Reed.
    Senator Tester.

                        WATER QUALITY STANDARDS

    Senator Tester. Yes, thank you, Madam Chair.
    I appreciate you being here today, Administrator Jackson.
    And Ranking Member Alexander, when we find CO<INF>2</INF> 
can be an asset, then many more problems will be solved. So I 
appreciate you bringing forth the limestone example.
    I want to thank you for your leadership in the position you 
hold in the EPA. I want to thank you for guiding your agency so 
efficiently to direct stimulus funds out to States and into 
communities to help restart those economies, while building 
critically important infrastructure, and improving 
environmental quality. I am proud to say that Montana was one 
of the fastest States to distribute those recovery funds, and 
they were very much appreciated and infused almost $40 million 
into rural communities throughout the State to help with water 
distribution and bring them in compliance with drinking water 
standards. So it was a good thing and, unfortunately, we need 
even more. But thank you for your work there.
    I want to touch on a question that Senator Nelson asked. In 
Montana, where every community is a rural community--and some 
of those rural communities are even frontier communities--their 
ability to comply with standards that continue to get tighter 
and tighter and tighter is very, very difficult. Make no 
mistake about it. I do not want rural America to have 
substandard water quality, but as the standards get tighter 
with our advancement with science, the folks in a lot of these 
areas are asking themselves are the tighter standards really 
providing a health benefit.
    And so I want to ask you two questions. Number one, as 
these standards get tighter down the line and I do not care 
there are numerous bad things in the water that you always try 
to get to zero, but at some point in time, it becomes cost-
prohibitive. Do you feel strongly about the science as these 
standards get tighter and tighter, number one?
    And number two, is there any ability to give any relief to 
these rural communities? I know Senator Nelson asked a very 
similar question, but it is very important because, quite 
honestly, they are getting to the point where they cannot 
afford it. And they are not poverty stricken areas either.
    Could you just kind of touch on those things?
    Ms. Jackson. I certainly will.
    First, on the science question, I think it is incumbent on 
me as head of the EPA to make sure the science is absolutely 
strong, especially when we are dealing with something like 
drinking water. I mean, we cannot live without it, clearly. But 
we also do not want to frighten people unnecessarily with all 
the things that they are worried about, especially in this day 
and age.
    That is why we are going the extra mile on the contaminant 
like arsenic, which in many cases is naturally occurring, to 
say to people before we move into what this means from a 
regulatory position, let us go back and make sure that our 
science advisory board, who advised us on this last time, 
thinks we took the right approach in responding to their 
comments. We will include comments that we have received 
already through the public comment period and give those to the 
science advisory board as well.
    You have my commitment we will be as rigorous as we know 
how to be, and generally peer review is a really important part 
of ensuring scientific rigor.
    On the second question of affordability, there is currently 
in the law some ability to look at affordability criterion for 
small systems. There are also you mentioned the ARRA and the 
budget that passed last year. The Safe Drinking Water Act has 
always had, as part of the Drinking Water Revolving Fund, the 
ability to have loan forgiveness, essentially grants, to help 
smaller communities if they cannot afford it. I think we were 
talking recently about this because it came up in another 
hearing earlier last week, and I do think EPA will renew its 
effort to work at the State level with the professionals of the 
State to make sure that it is clear where those flexibilities 
that currently exist are because they are significant. A lot of 
times the problem is less than the flexibility and more that 
there is just more money needed. There is flexibility but there 
is not enough money to give out. And that, of course, we know 
is a concern in terms of investments in water infrastructure.
    Senator Tester. And I appreciate the answer. It is 
important to know where the majority of the country is dealing 
with hundreds of thousands or millions of people on these water 
systems, where I live, for example, you are actually talking 
about a couple hundred people that covers an area probably four 
times the size of New Jersey. And so it is really important 
that, as we move forward everybody wants clean drinking water. 
You are exactly right. If we do not have this, we do not 
survive. But by the same token, we need to make sure that we 
are not eliminating the ability for communities to provide 
water or they will disappear. Period.
    I have got about 12 more questions, but I will go around. I 
assume we are going to have another round, Madam Chair?
    Senator Feinstein. Yes, we are.
    Senator Tester. Well, thank you.
    Senator Feinstein. Thank you, Senator Tester.
    Senator Tester. I will be back. Thanks.

                 WATER QUALITY FUNDING AND ENFORCEMENT

    Senator Feinstein. Okay, good.
    I wanted to change my topic, at least a little bit, to 
water quality funding and enforcement. As I mentioned, we put 
in nearly $10 billion for water and sewer projects in fiscal 
year 2010, including $6 billion through the stimulus. My 
understanding is all States needed to have their ARRA funds 
under contract by February 17 or risk losing them. Are all of 
the ARRA funds under contract at this time?
    Ms. Jackson. They are, indeed, Madam Chairman.
    Senator Feinstein. And how many are there?
    Ms. Jackson. There were $6 billion total. Are you asking 
for the number of projects?
    Senator Feinstein. Yes.
    Ms. Jackson. I do not know. We will grab that number for 
you.
    Senator Feinstein. I think it is 3,416. They say do not ask 
a question you do not know the answer to.
    Senator Feinstein. I think it is that, which I think is a 
very good record. We got those projects funded and that was 
good.
    The New York Times recently reported that more than one-
third of sewer systems have violated clean water laws since 
2006. The Times also reported that fewer than 3 percent of 
Clean Water Act violation resulted in fines or other 
significant enforcement actions.
    And as a matter of fact, I must tell you I have noticed 
that too. When I was president of the board of supervisors, we 
were under a cease and desist order and a sewer connection ban, 
and had to build a whole new wet weather sewer system because 
the sewers overflowed. If they overflowed more than 200ths of 
an inch and the water went into the ocean and the Bay of San 
Francisco, it was a bad thing. And so there was a penalty. 
Since that time, I have really seen no real penalties.
    And I want to get to the delta and all the sewer systems 
that empty into the delta area of California in a minute.
    But what specific steps is EPA taking to improve 
enforcement and what is your time table for making changes, if 
there is one?
    Ms. Jackson. Chairman, the time table is easy. That is 
immediate. It has already begun. The Assistant Administrator 
for Enforcement, Cynthia Giles, who is here in response to that 
series of articles. There was a series of articles in the New 
York Times, and they were not alone. There were lots of people 
who were saying that water enforcement had seemed to be de-
prioritized has stepped up enforcement.
    Now, I have to tell you we are going to continue to focus 
on the biggest threats to human health, not just to get, you 
know, cases for the sake of bringing cases. Oftentimes, these 
cases can be against municipalities that are already 
financially strapped. Our desire is to get them into 
compliance, not to take all their money so that they then have 
to spend it on a penalty, but to get them into compliance. And 
that is what we have been saying.
    The other focus is transparency. One of the things that 
series of articles did is that the reporter spent an incredible 
amount of time going State by State to get data that is not now 
nationally available. So people cannot look and see whether or 
not systems are complying without lots and lots of work. They 
cannot get a picture of the U.S. water compliance. So we are 
insisting, when we work with our States they are our partners, 
but we are being pretty tough on this that they have to make 
that data available and transparently available so that folks 
can see what is going on.
    Senator Feinstein. Well, let me stop you for a minute. Now, 
the budget has $45 million. It is an increase for State water 
pollution control grants. How are you going to assure that the 
States use this money for enforcement?
    Ms. Jackson. That money will be for permit writing and for 
enforcement. Oftentimes, they are the same person at the State 
level, as we all know. And it will be given out through grants 
under our performance partnership agreements with the States 
and will be conditioned on use and sometimes some amount of 
match to ensure that it is used for water programs. There is 
actually a slightly larger amount for air programs as well.
    States have been asking for this money, and we are proud to 
as a former State commissioner, I am proud to be able to give 
them some help, especially now.

                           GREAT LAKES FUNDS

    Senator Feinstein. Okay.
    Let me go on quickly to the Great Lakes. There were $475 
million. It was cut to $300 million. As of February 17, I think 
you have only obligated or transferred $39 million of that 
amount. So we have a huge appropriation out there for the Great 
Lakes with very little movement. Why is that?
    Ms. Jackson. The President asked me, as head of the Great 
Lakes process, to do several things. One was to ensure that we 
involved all the Federal agencies that have real work to do on 
the Great Lakes. The other was to include a real outreach 
process so that we would come out with an action plan, which we 
just released about 2 weeks ago, that reflected what the 
community and the stakeholders, the States, the tribes, around 
the lakes wanted, industry as well. I think it is a very strong 
plan. It builds on a lot of work.
    And last but not least, we really did not get the 
appropriation until the budget was reviewed, and that was 
toward the end of last calendar year. And so we could not put 
out the grant solicitation until we had the money to back up 
that grant solicitation. Those grant solicitations are out now, 
and I think we will start to see money awarded very soon. I 
also think it will be money for real projects on the ground. 
What we have said is what the President said is he wants work 
done in the Great Lakes, not lots and lots of
    Senator Feinstein. Right, exactly. Well, I appreciate that. 
You know, I think we should take a look at that and monitor it 
because this is a huge project. And there is a lot of use for 
those monies. I am thinking of one specifically in California, 
which is the bay delta.
    The bay delta is, Senator, a very interesting place. It is 
enormous. It has got maybe 2,000 miles of levee. There are a 
lot of artificial islands, peat soil. You know, when the soil 
leaks into the delta, it throws off trihalomethanes, which are 
difficult to treat. It is the source of drinking water for 20 
million people. The federally run Central Valley Water Project 
has a huge aqueduct, which pumps water out of the delta all the 
way down to southern California essentially. And it is under 
great stress.
    My question to you, Madam Administrator, is what can the 
EPA do to achieve the goals you identified in your work plan to 
address the water quality issues, including what are growing 
discharges of ammonia and something called pyrethroids, which I 
gather are dangerous, toxic to crustaceans and therefore fish. 
We have two endangered species, namely the smelt and the 
salmon, and that impacts everything done in the delta. There is 
a real need for some EPA participation in this. So if you have 
any suggestions that you would like to put on the table, I 
would love to hear them.
    Ms. Jackson. Well, thank you, Madam Chairman.
    EPA is committed to working on the water quality side of 
the equation when it comes to the bay delta. Obviously, there 
are water quantity issues, but if the water that we get is 
dirty and requires lots of money to treat in order to be used, 
whether it is for agriculture or drinking water or whether it 
is hurting the ecosystem, at the end of the day, we still have 
a problem in the bay delta.
    So I think that is where EPA's expertise and assistance to 
the State of California can be absolutely invaluable. You have 
my commitment that we will work on looking at dischargers to 
try to ratchet those numbers down so that people are properly 
stewarding the bay in terms of what they discharge and also 
looking at ecosystem health and water supply issues from the 
context of we do not want dirty water once, we get it, to see 
what we can do ensure water quality.
    Senator Feinstein. Thank you. That is very helpful. Thank 
you very much.
    Senator Alexander.
    Senator Alexander. Thanks, Madam Chairman.

                HYDRAULIC FRACTURING AND DRINKING WATER

    Administrator Jackson, $4.3 million requested this year to 
undertake a study of the relationship between hydraulic 
fracturing and drinking water. This is a pretty important 
study. I mean, suddenly in the United States we find we have a 
whole lot of natural gas at low prices, which is important for 
a wide variety of reasons.
    My question is we hear a lot of talk about good science. I 
want to make sure that in the review of this issue that you 
have the maximum amount of peer review and good science so that 
everyone has confidence in the conclusion. What is your plan?
    Ms. Jackson. Thank you, Senator.
    I am happy to give you that assurance. The study has not 
begun yet. In fact, what we are in the process of doing is 
reprogramming money for the current fiscal year so that we can 
begin the study this year rather than wait. I think this is a 
very important and timely issue and we need to start sooner 
rather than later. We have not completely scoped out the peer 
review aspect of it, but I will be happy to work with you and 
your office to ensure you feel comfortable that there is 
adequate and sufficient review of the results.
    Senator Alexander. I would appreciate that. Would you 
consider peer review entities outside the EPA?
    Ms. Jackson. They normally are, sir. There are several 
options for peer review. Our science advisory board is an 
organization that is outside the EPA, but we have also used 
different methods for peer review. So I am happy to discuss 
that with you.

                               CLEAN AIR

    Senator Alexander. Thank you.
    I would like to move to clean air. Two questions.
    As I mentioned, Senator Carper and I have a hearing 
tomorrow in the Environment and Public Works Committee on our 
clean air law, which would be nationally stronger standards for 
SO/x/ and NO/x/ and the first law requiring a 90 percent 
reduction in mercury from coal plants.
    One, will you work with us to make sure we understand the 
cost of that? You have a lot of capacity for modeling and a lot 
of experience in that. I want to make sure we know what we are 
doing. In other words, I do not want us to put a law--in the 
early estimates from EPA are that the cost might not be more 
than $2 or $3 a month more on the average electric bill by 
2025. If that is so, that is not much money. But I do not need 
a complete answer today. I just want to get it to the top of 
your list in your agency and make sure you give us as much help 
as possible, as quickly as possible, in having a reliable cost 
estimate because we would like to pass the bill this year.
    Ms. Jackson. Thank you, Senator.
    Senator Alexander. So will you help us?
    Ms. Jackson. I am happy to make sure our staff sit down 
with you as soon as possible to talk to you about exactly what 
analyses you need in order to support your work on the bill 
this year.

                 CLEAN AIR ACT--AMBIENT OZONE STANDARDS

    Senator Alexander. Thank you very much.
    Now, here is my other question. EPA will soon issue final 
regulations to tighten local ambient ozone standards 
nationwide, and it looks like it is going to put every 
metropolitan area in the country, such as those in California 
and Tennessee, Madam Chairman, in nonattainment status with the 
CAA.
    Now, that is of great practical importance. When I was 
Governor and Nissan came to Tennessee, the first thing they did 
was run down to the air quality agency and get a clean air 
permit so they could open a paint plant. And if Volkswagen has 
come to Chattanooga and they are recruiting suppliers, the 
first thing they are going to do is, in some case, to have to 
get a clean permit.
    We have a lot of air blowing into our State, for example, 
and a lot of it blows up against the Smoky Mountains. So we 
have a lot of special clean air problems, and I know that our 
communities are working very hard. Senator Corker, when he was 
mayor of Chattanooga, worked very hard. In other words, we are 
doing almost all we can locally. Perhaps we can do some more to 
clean up our air.
    It will take strong national emission controls on coal 
plants for us to be able to meet your upcoming stricter local 
standards. I want to make sure we do not get the cart before 
the horse here. I am working hard for stronger national 
emission control standards, but if you come in with unrealistic 
local standards, the effect will be to send Volkswagen offshore 
with its suppliers, and that will put jobs where we do not want 
them.
    So what are you doing, as you look over the next 3, 4, 5 
years to harmonize your local ambient standards with the 
national requirements that will help local communities meet 
your upcoming tougher local standards?
    Ms. Jackson. Thank you, Senator.
    You are absolutely right on the way the CAA works. There 
are requirements that are put on States and regions. But one of 
EPA's most fundamental responsibilities is to deal with what is 
called interstate transport, the fact that the Eastern United 
States gets a lot of pollution just by virtue of the way the 
wind blows. EPA is planning to release a proposed rule in the 
coming months, actually very soon, to replace what is called 
the CAIR Rule. You probably recall that CAIR was thrown out by 
the courts. The last administration's rule was thrown out as 
not following the Clean Air----
    Senator Alexander. And the purpose of our legislation is to 
fix that problem.
    Ms. Jackson. I think we have the same goals there and I 
think it is extremely important.
    Let me just say one word about the proposed ozone 
standards. Those are not final yet. So, again, I do not want 
anything I say here to somehow prejudice the public comment 
period, which is ongoing and very, very important.
    The CAA is also very clear about how standards have to come 
to be set. It says, first, figure out what is necessary to 
protect health. That is the foundation. And that is based 
entirely on science, as you know, not on economics, but then 
the regulations that ensue afterwards are very much based on 
economics. You, I think, know me now well enough to know that 
as we move to the regulatory--whatever happens on the national 
ambient air quality standards themselves--I believe it is 
important to be honest with the American people. Sometimes we 
have good environmental news and sometimes we have challenges. 
Until we are clear about what the challenges are, we cannot 
expect people to be able to figure out how to solve them.
    So we will go through the process and we will move, I 
think, in a way that will ensure that the CAA will do what it 
has always done. Air pollution is down 41 percent for priority 
pollutants, while GDP has gone up. I think that kind of story 
is entirely possible. As I know you do, in your proposed 
legislation.
    Senator Feinstein. Thank you very much, Senator.
    Senator Tester.
    Senator Tester. Yes, thank you, Madam Chair.

                     SUPERFUND SITE--LIBBY, MONTANA

    Montana also has some other big challenges. I think we have 
11 Superfund sites on the national priorities list. They are 
some of the biggest and complex in the United States in a 
headwaters State.
    As I invited you last year to come to Libby, the invitation 
is still on to take a look at some and, if you have the time, 
all of these Superfund sites. So that invitation still stands, 
and I look forward to the time where you can get to Big Sky 
Country.
    I want to talk about Libby for just a second. First of all, 
I want to thank you for your work with Kathleen Sebelius and 
with Senator Baucus and myself in declaring the public health 
emergency for Libby. That was critically important with more 
than 200 folks dead in a very small town, I might add, and 
thousands more sick. This designation was warranted and will 
help bring proper resources to that community, and I want to 
express my appreciation for that, as well as Secretary 
Sebelius.
    What I wanted to ask you about now, in reference to Libby, 
is that last year the subcommittee instructed you to report 
back within 180 days, which you have still got about 60 days of 
those left, about the known health risks and baseline for 
determining the cleanup activities planned for Libby with 
sufficient science to develop a record of decision. How is that 
report coming?
    Ms. Jackson. I believe it is in process. I think we have 
continued to work on it, sir, and we will get you a status 
report for the record because I do not have the specifics on 
the report.
    Senator Tester. Okay, that would be good.
    [The information follows:]
           Determining Clean-up Activities Planned for Libby
    A draft report is currently undergoing internal Environmental 
Protection Agency review and we plan to transmit the report to you on 
schedule.

    Senator Tester. One of the things that is going on right 
now in Libby is the risk assessment is using old methodology, 
both data and methodology from about 2000. So I think, as with 
everything--in Libby's case, all we want in the end--all you 
want, all I want--is to have a place that is safe to live in. 
And so we need to have the best or the newest techniques. So 
make sure that we do the work that we do right and make sure we 
are not spending our money on stuff that we do not need to be 
spending money on.
    So the question is since Libby is really setting the 
science for asbestos resource, what kind of oversight can we 
expect from you or the agency to make sure that we are using 
the best science available.
    Ms. Jackson. Well, we will continue to--I absolutely agree. 
Libby is sort of the frontier of this amphibole asbestos 
science. We will continue to make sure that we refine that 
science as more information becomes available.
    One of the problems in Libby is that we are using very old 
risk information. We have committed to updating that toxicity 
information, but it will not happen until sometime in 2011.
    What my commitment to you, Senator, is that we do not want 
to stop all cleanup while we wait for new information.
    Senator Tester. No.
    Ms. Jackson. So sort of the common-sense approach is where 
the risk information is irrelevant, let us move ahead on 
cleanup because we know we have to do it, and in those cases 
where we need the risk information to make a final decision, 
let us hold off, but we want to continue to do both. Right? 
Great science but also keeping the cleanup going for the 
citizens.

                        SOUND SCIENCE--ASBESTOS

    Senator Tester. And can you give me any sort of assurance 
that before that record of decision is issued, that we will 
have sound science behind that?
    Ms. Jackson. I absolutely will, but let me just be clear 
because I do not want you to be angry at me later. There are 
some decisions we can make based on the science we have now. 
The science we have now is necessary and sufficient to support 
some decisions. Let us try to make them, but let us not run to 
make a decision if we do not have the necessary science.
    Senator Tester. But when that final record of decision 
comes out, it has got to be based on solid science.
    Ms. Jackson. Absolutely, Senator.
    Senator Tester. Okay.
    There are about 8,000 folks in Libby that have been exposed 
to asbestos. There is epidemiological data to bear that out on 
those 8,000 folks. I am wondering why that data--if you can 
respond to this, and I know it is pretty specific--but why that 
data is not being used to evaluate the risk on human health, 
rather we are utilizing animal testing.
    Ms. Jackson. Yes. I cannot respond to it. It is sort of 
beyond what I know of the site. But why do I not check and we 
will get back to you.
    [The information follows:]

                   Libby--Using Epidemiological Data

    The approach that the Environmental Protection Agency (EPA) is 
using to evaluate the human health risk from current and future 
exposure to Libby amphibole is multifaceted and is described in detail 
in the above-referenced report that will be submitted to the Senate 
Appropriations Committee. Animal studies are only one component of this 
effort. Epidemiologic data based on measured exposures and observed 
cancer incidence in Libby mine workers, who also were residents of 
Libby, are being evaluated to determine a Libby amphibole-specific 
cancer toxicity value. Similarly, epidemiological data based on 
measured exposures and observed noncancer effects in processing plant 
workers exposed to Libby amphibole are being evaluated to determine a 
Libby amphibole-specific noncancer toxicity value. These values, 
coupled with exposure concentrations measured in Libby, will be used to 
evaluate the risk of cancer and noncancer effects for the Libby 
community. These values are expected to be available for use in the 
baseline risk assessments for the Libby and Troy communities, which are 
planned to be completed in 2012. The animal studies that also are 
underway are expected to provide additional toxicity information to 
inform the uncertainty sections of the baseline risk assessments. Long-
term epidemiological studies designed to tie health effects to 
quantitative measures of exposure to Libby residents that did not work 
in the mine or mills are also underway. In order to use epidemiological 
data to quantitatively evaluate the incidence of adverse health 
effects, quantitative measures of exposures are required. The incidence 
of adverse health effects in Libby residents who were not mine or mill 
workers is well-documented, but has not yet been tied to quantitative 
measures of exposure. This is one of the goals of the long-term 
epidemiological studies that are now underway in Libby.

    Senator Tester. And I would just say that the CARD Clinic 
up in Libby is doing a great job and if EPA utilizes them to 
the best of their ability, they can be a great asset for you in 
that community because they are on the ground.
    One more question very quickly. Libby is complex. There has 
not been a risk assessor working with EPA in the community, and 
I was wondering what your sentiment is on placing a risk 
assessor on the ground in Libby. It could help with agency 
communication with the residents. My understanding is--and you 
can correct me if I am wrong on this that basically there is a 
toxicologist that comes up once a month from California, and 
communication is critically important. I just want to get your 
perspective on why a risk assessor is not there and if you 
think there is a need for one.
    Ms. Jackson. I am happy to look into the specific staffing 
issues, sir, through the San Francisco office. I would say that 
I do know that the daily presence of public health 
professionals is extremely important. The risk assessment part 
of the science is a bit more wonky and a bit more it drives 
cleanup levels, but it is usually not necessary to have someone 
there all the time. It is very unusual to have a risk assessor 
full-time at a site, but let me check into it.
    [The information follows:]

                Libby--Full-time, On-site Risk Assessor

    The Environmental Protection Agency (EPA) operates a project 
specific information center and field office in Libby that is open 
during regular business hours. The Libby office is staffed by an EPA 
Remedial Project Manager and a Contract Administrative Assistant who 
live in Libby. Their full-time presence in Libby provides the 
opportunity for individuals to meet with EPA concerning the site. The 
remedial project manager's duties include oversight of field activities 
and coordination with the site toxicologist to address community 
concerns regarding site risks. The remedial project manager in the EPA 
Libby field office, supported by his team of response contractors, also 
serves as an Environmental Resource Specialist (ERS) so that if 
community members encounter vermiculite that may contain Libby 
amphibole asbestos they will be able to get immediate action from EPA. 
Action is tailored to the circumstance; EPA may offer on-the-spot 
answers to any questions regarding how to address the situation or, if 
necessary, on-scene support. This service is available during business 
hours and for emergencies. Community members have often sought the help 
of the ERS to help reduce the potential for exposure to asbestos.
    Regarding a full-time on-site risk assessor, at this time, EPA does 
not believe that the tasks associated with the site risk assessor 
require full-time residence in the community. Since 2007, contractors 
for EPA have been conducting activity based sampling to quantify 
current exposures to Libby amphibole asbestos during various types of 
yard work and children's playtime. Once Libby amphibole specific cancer 
and noncancer toxicity values are developed, the risk assessor will use 
these values and the activity based exposure concentrations to 
quantitatively estimate risks in the Libby community.

                            CLARK FORK RIVER

    Senator Tester. Okay. Communication, I think, is key and I 
think it helps your effectiveness, as well as communities 
understanding what is going on and why it is going on. But I 
appreciate your attention to that.
    Very quickly, and I will just make this my last question. 
Currently the State of Montana has a great working relationship 
on the Clark Fork River, restoring a watershed and turning that 
area into a scenic park. The work will restore clean water, 
fish, aquatic species habitat, and revitalize a corridor that 
is home to many of Montana's farms and ranches. This site was 
listed in 1985. It has waited a long time for cleanup. The 
State and the EPA have entered into a consent agreement where 
the State is the lead agency, a position well deserved after 
their good work, particularly in Silver Bow County and Milltown 
Dam.
    There is more than $100 million ready to put folks to work 
in restoration economy in Montana. Unfortunately, this work is 
stalled because of what I would call a minor disagreement 
between the EPA and the State. I just need your commitment that 
you will work with the State of Montana, which is the lead 
agency, to get these issues resolved so that we can get these 
projects commenced in a timely fashion. As I said, Montana is a 
headwater State. This is no different, and the quicker we get 
it cleaned up, I think the better it is for the whole country.
    Ms. Jackson. Certainly, Senator. Obviously, we have the 
same goal, which is to get it cleaned up.
    Senator Tester. Yes. Thank you very much. Once again, thank 
you, Lisa. I appreciate your time. I appreciate your answering 
the questions.
    Thank you, Madam Chair.
    Senator Feinstein. Thank you very much, Senator.
    Welcome, Senator Murkowski. You are up next if you would 
like to be.

                       STATIONARY SOURCE EMITTERS

    Senator Murkowski. Thank you so very much. I appreciate it. 
I apologize that I have not been here for opening statements. 
We have Secretary Salazar testifying in the Energy Committee, 
so we are kind of bouncing back and forth this morning.
    But good morning, Administrator Jackson. Thank you for 
being here.
    A couple questions. You probably already know where I am 
going to be coming from in terms of my questions this morning.
    When the President spoke to us at his State of the Union 
Address, he called on the Congress to develop comprehensive 
energy and climate legislation, and then it was just a few days 
later when he released his budget, that the EPA requested more 
than $40 million in order to begin regulating greenhouse gas 
emissions on its own.
    I have expressed my concerns about that. I believe it 
should be the Congress that does the policymaking in this area. 
I am quite concerned that EPA's actions will harm our economy 
at a time that we can least afford it.
    Now, I understand and I have read the letter that you have 
sent just last week--I believe it was last Monday--in response 
to several of my colleagues about how you understand the EPA 
would implement its proposed regulations. I would like this 
morning to just get some better clarification from the points 
that were raised in that letter.
    According to that timeline, you said that roughly 400 
stationary source emitters will face regulation under the CAA 
in the first half of 2011. My questions this morning are, given 
that timeline then, how many stationary sources do you 
anticipate would be regulated in the second half of 2011? I am 
trying to anticipate what it is that we might be seeing as we 
move through this transition, I guess, for lack of a better 
term, that you have proposed. So can you give me some 
indicators as to what we might anticipate that second half of 
2011 and then how many stationary sources we would see 
regulated by the end of 2013?
    And then it is my understanding 2016 is when you hit the 
smaller sources. So the number of increases that we will 
anticipate and when we actually hit what you defined as smaller 
stationary sources.
    Ms. Jackson. Thank you, Senator.
    I just have to preface everything I say by saying the 
letter was an attempt to give what we know about an ongoing 
rulemaking process. I need to just say that up front.
    You asked about the first half of next calendar year, first 
half of 2011. And then the second half. So as you move into the 
second half, it is likely, depending on the final rulemaking, 
that you could see up to 1,700 permits manually that would need 
to be reviewed for greenhouse gas emissions that would not this 
year, for example. So I think that was your question.
    Senator Murkowski. So that would be July 2011 you would see 
an additional 1,700. Is that right?
    Ms. Jackson. Yes. We have not set an exact date, but you 
said second half of the year. I feel more comfortable with that 
terminology.
    Senator Murkowski. Yes, sure.
    Ms. Jackson. And then you asked about 2012?
    Senator Murkowski. 2013.
    Ms. Jackson. Depending on the level that we choose, it 
probably looks around 3,000 additional major sources. Again, 
that is based on what we know right now from public comment. A 
lot of this is based on comment we have received from States 
who say, ``This is what we see our workload being.''
    And then you asked about 2016 where we are looking at--what 
the letter says and what I feel comfortable saying today 
sitting here is that it--be no sooner than 2016 that we would 
move to the smallest sources.

                        SMALL SOURCE REGULATIONS

    Senator Murkowski. And can you give me then some examples 
of what you would consider to be those smaller sources that 
would be subject to regulation after 2016? The big concern, the 
fear is that the local corner restaurant would be subject to 
regulation. Can you give me some examples of what you might 
consider?
    Ms. Jackson. I do not have any specific categories. I would 
say that it would be based on a tonnage amount per year. We 
said that would be the smallest of the small sources.
    Perhaps this would be helpful. Sixty-seven percent of 
covered major stationary source emissions come from facilities 
larger than 100,000 tons of CO<INF>2</INF> equivalent; 70 
percent from facilities larger than 50,000 tons; and 75 percent 
from facilities larger than 25,000 tons. So you can see you do 
not get a whole lot more in terms of percentage reduction when 
you move from, say, 100,000 down to 50,000. And the same is 
true when you move from 50,000 to 25,000.
    Senator Murkowski. So as you define a small stationary 
source by ton, what would that number be?
    Ms. Jackson. The letter simply says that in the proposed 
rule, we talked about 25,000 tons as being the number.
    Senator Murkowski. Right.
    Ms. Jackson. What the letter says is that we are looking at 
a significantly higher level because one thing we have heard 
from many, many States is that 25,000 tons would still get in 
certain facilities that they do not consider large, and would 
more appropriately be considered small. This is the Tailoring 
Rule. That is what it is generally called--to tailor greenhouse 
gas regulation and phase it in over a long period of time. We 
are looking at something significantly higher than 25,000 tons, 
you know, 50,000, 75,000. We are looking at those numbers as we 
finalize the rule.
    Senator Murkowski. Madam Chairman, my 5 minutes are up. I 
do not know if we are doing second rounds.
    Senator Feinstein. Why do you not take some more time?

                     REGULATION VERSUS LEGISLATION

    Senator Murkowski. Okay, I appreciate that. I appreciate 
the indulgence.
    Let me ask for some clarification here, and this is 
clarification on EPA's position on regulation versus 
legislation. There was a statement that was made in Copenhagen 
that I think has generated a little bit of confusion. You had 
stated--and this was presumably in reference to the choice 
between either Congress or EPA acting to reduce emissions--that 
``this is not an either/or moment. It is a both/and moment.'' 
So you have made that statement.
    But then you have also made other statements that provide 
that ``I absolutely prefer that the Senate take action.'' 
Elsewhere you have been quoted as saying that you firmly 
believe--and the President has said all along--that new 
legislation is the best way to deal with climate change.
    So I am not sure whether you agree with me--and I think the 
President as well--that new legislation is the best way to deal 
with climate change or whether it should be EPA regulation. I 
would like you to provide to me and certainly to the 
subcommittee here to explain what the position is regarding 
whether it should be EPA or whether it should be Congress that 
should develop our Nation's climate and energy policy.
    Ms. Jackson.Well, I stand behind my statement in 
Copenhagen. I certainly stand behind the President's call for a 
comprehensive energy legislation that puts a price on carbon. I 
believe that is absolutely the best way, as you said, to move 
our country into a clean energy future. I think it is critical.
    I also think that it is not an either/or moment. I think 
even legislation that has currently passed the House--that is 
the standard we have right now--envisions that EPA will have 
certain roles to play. There is lots of regulatory work that 
the EPA can do that is entirely consistent with new legislation 
in the future. I believe it is incumbent on me as head of the 
agency to ensure that regulations that we propose and 
promulgate are consistent with what is going on here in 
Congress with respect to new legislation. It is complex, but it 
is not the time to make a choice as to whether or not EPA can 
regulate.
    I think the CAIR rules are an excellent example of that 
because they are rules that are likely--I do not want to guess 
what Congress may do or take away any prerogatives, but likely 
to survive because they are such an important milestone for our 
country. The auto industry wanted the rules. Labor unions 
wanted the rules. Environmentalists believe in the rules. 
States wanted the rules in order to have one regulatory picture 
for cleaner cars for this country between now and 2016. And I 
think those rules are an example of the kind of common-sense, 
smart rulemaking we can do that is entirely consistent with my 
belief and hope that Congress will, indeed, enact new 
legislation in the future.

                          REGULATORY APPROACH

    Senator Murkowski. Well, I think the President, in his 
statements that I have read, has been quite clear that he 
prefers and is encouraging the Congress to move on climate 
policy, and that is the direction that should be taken as 
opposed to the regulatory approach.
    And I think one of the concerns that we face, what I am 
discussing with Secretary Salazar just upstairs, is the concern 
that there are policies that are happening over here and 
regulation that is basically doing whatever they want within 
the agencies. And you do not have a meshing. You do not have a 
coordination. We see far too often, I think, kind of this 
bootstrap--not necessarily bootstraps. What is the expression I 
am thinking of? ``Belts and suspenders'' where you have overlap 
of regulation and policy that do not necessarily mix, and then 
we do not have a coherent scheme in place.
    So, I do not know that I am any more clear, based on your 
statement this morning, as to whether or not you think it 
should be the Congress and those of us that are elected by our 
constituents and accountable to them to enact and advance 
climate policy. So we will continue to work and address this.
    I have one parochial question, if I may.
    Ms. Jackson. If you would not mind, let me just be clear 
again that I would like nothing more than to see Congress enact 
comprehensive energy and climate legislation. I join the 
President in that call. It is my belief that there is no 
example out there of EPA regulation, since I have been 
Administrator, that is not entirely consistent with a belief 
that that is where we are heading.
    And it is also my belief that the States, as well as EPA, 
will have a significant role to play as we move into a world 
where carbon pollution is addressed, hopefully by law. And we 
have to get ready for that. We can take steps now that put us 
on that road that are entirely consistent with where we are 
trying to head. As you know, Secretary Salazar and I are part 
of a green Cabinet that meets regularly to ensure that our 
efforts under President Obama's leadership are coordinated and 
support his call for legislation.
    Senator Murkowski. Given what you have just said then, 
would you support Senator Rockefeller's proposal to delay for 2 
years any implementation of EPA regulations?
    Ms. Jackson. I support the need for new legislation to 
address carbon pollution, and I support and believe that it is 
my duty as EPA Administrator to promulgate and finalize common-
sense, smart regulations that do not put this country in lose-
lose situations, but that are win-win. And I think the 
automobile proposal, which we will soon need to finalize, is an 
example of how we can do that. I do not think we are at a fork 
in the road.
    I also think, Senator, and I should point out that the law 
compels me as EPA Administrator to follow the Supreme Court 
decision of April 2007. The law says that EPA has to move 
forward on these issues, and the rule of law and my respect for 
it demands that we move forward as well.

                       VILLAGE SAFE WATER PROGRAM

    Senator Murkowski. Thank you. I think there are many of us 
who feel that the EPA is expanding their interpretation beyond 
what you believe.
    Let me ask very quickly a last question here, and again, 
this is parochial. This is regarding the village safe water 
funding.
    Funding for the Village Safe Water program has been reduced 
in past years and remained flat-funded in the fiscal year 2011 
budget request. We have some pretty considerable needs in my 
State for water and sewer infrastructure, but our greatest 
needs are in communities that have absolutely no running water, 
no sewer service. Approximately 20 percent of our Native Alaska 
villages do not have what I think people would consider just 
basic services, basic needs.
    I would ask that you look at the funding for the Village 
Safe Water program. This is something that we have been working 
with your agency on, and I would like to think that this is an 
area where we can find areas of cooperation as we work to 
address some pretty basic needs for people in some of the most 
remote areas of the country.
    Ms. Jackson. I am happy to do that, Senator.
    Senator Murkowski. Thank you.
    Thank you, Madam Chairman.

                 GREENHOUSE GASES--MARKET-BASED SYSTEM

    Senator Feinstein. Thank you very much.
    Well, I think it is obvious that I greatly respect Senator 
Murkowski, but we have a very different view on this subject. I 
strongly believe, based on the Massachusetts case and I have 
read the law, the opinion here this morning, that you have to 
move forward and should move forward.
    However, I just want to say personally I have always felt 
that an incremental approach to the legislative approach is a 
much better way of going. Some time ago, I introduced a bill 
that affected the electricity sector only. I still, to this 
day, believe that if we move to institute a system affecting 
the electricity sector first, that it would work well and that 
people would see how a global warming cap and trade bill could 
be put into play. I believe each sector is different, but that 
is for another day.
    Your budget asks for $7.5 million to fund the development 
of national new source performance standards for greenhouse 
gases, which you contend, I believe, that it would allow EPA to 
consider market-oriented mechanisms and flexibilities to 
provide a lowest cost compliance option.
    Is it possible to set a market-based system to regulate 
greenhouse gases in the utility sector using these standards? 
And has EPA ever done something similar to this?
    Ms. Jackson. I think, Chairman, the reference to market-
oriented mechanisms should not be read too broadly to imply 
that EPA is currently looking at a market-oriented mechanism, 
say, cap and trade, such as has been discussed--passed in the 
U.S. House of Representatives and is certainly being discussed 
in various quarters in the U.S. Senate. Rather, I believe that 
section 111 of the CAA might authorize inclusion of some 
market-oriented mechanisms. That is one of the discussions that 
we are having for certain categories. So I do not want the 
language in the budget document to be read too broadly and for 
us to assume at this point that the agency has broader 
information.
    Senator Feinstein. Well, let me discuss it with you. As I 
understand it, you have created a cap and trade system for 
sulfur dioxide and nitrous oxide under this provision of the 
CAA, known as the CAIR Rule. So EPA can do this. It would have 
to be sector by sector instead of economy-wide. And it would 
not be able to benefit from offsets. But if you can do it with 
sulfur dioxide and nitrous oxide, I do not understand why you 
cannot do it here too.
    Ms. Jackson. Yes, Madam Chairman. I am not saying that it 
cannot be done. There are certainly limitations on it. I think 
it is something that we are happy to continue to work with your 
staff as we develop our thinking on where that might be 
appropriate.
    The New Source Performance Standards have the advantage 
under the CAA of being sector-wide so that they are different 
than the best available control technology standards under 112, 
which are case-by-case analyses. They give a real road map to 
where the technology is on any particular pollutant. In this 
case, it would be CO<INF>2</INF> and greenhouse gas pollution. 
So there are real advantages to looking that way, to working 
with the industry to say, okay, what is doable, what can be 
commercially viable, what do we do now. And it allows the law 
to change--excuse me--the regulations to change as we learn 
more. But I would say our thinking is not so involved that I 
feel comfortable sitting here today telling you the extent to 
which that could be done.
    Senator Feinstein. Fair enough. Thank you.
    Senator, do you have a question?
    Senator Alexander. I have only one.
    Senator Cardin and I have a bill on mountaintop mining. Our 
goal is not to eliminate surface mining of coal but to limit 
the practice of blowing off the top of a mountain and dumping 
the fill in streams. Would such a bill, if you had a chance to 
look at it, help clarify the 404 permitting process that you 
are now going through various permits for surface mining?
    Ms. Jackson. Thank you, Senator.
    In response to requests from you and Senator Cardin, EPA is 
completing certain analyses on the bill. Obviously, EPA's 
responsibilities are pursuant to the Clean Water Act. In some 
ways, they are narrower and speak to a narrower set of issues 
than your bill does, which speaks to the practice in general.
    But certainly it is my belief that as we learn more and 
more from outside scientists and inside scientists, we know 
that there are clear water quality impacts that come from 
filling in streams--that is pretty intuitive--and from the 
valley fills that result when you have to take this tremendous 
amount of overburden. It is EPA's focus, in reviewing your 
bill, to give you as much information as we can about what your 
bill would do to alleviate that situation. That is our 
interest. And we are happy to continue working with you on 
that.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Alexander. Thank you, Madam Chairman.
    Senator Feinstein. Thank you, Senator.
    And Madam Administrator, let me thank you very much and 
everybody with you.
    Ms. Jackson. Thank you, Senator.
    [The following questions were not asked at the hearing, but 
were submitted to the Agency for response subsequent to the 
hearing:]

            Questions Submitted by Senator Dianne Feinstein

                    GREENHOUSE GAS (GHG) REGULATION

    Question. Administrator Jackson, you stated in your February 22 
letter to Senator Rockefeller and a number of Democratic Senators that 
you don't plan to regulate the smallest sources of GHGs before 2016. 
Your comments have been interpreted by some to mean that the 
Environmental Protection Agency (EPA) does in fact plan to regulate 
small businesses after all. How do you plan to address the question of 
whether to regulate small sources? Will you study how practical it 
would be to regulate small sources like family farms, apartment 
buildings and dry cleaners before subjecting them to any regulation?
    Answer. In the proposed tailoring rule, EPA explained the need to 
conduct a 5-year study concerning the potential application of Clean 
Air Act permitting programs to sources that emit less than 25,000 tons 
per year of GHGs and to follow that study with a rulemaking to 
determine how to address such small sources. As I indicated in my 
letter to Senator Rockefeller, the final tailoring rule will ensure 
that small sources will not become subject to Clean Air Act permitting 
for at least 6 years. In any event, I believe there is every reason to 
expect that Congress will enact a comprehensive program to address GHG 
pollution--a program that settles any questions about small sources--
before 2016. I hope you share that expectation.
    Question. During 2011, a very small number of the largest sources 
will come under greenhouse gas regulation. This will require these 
facilities to use the ``Best Achievable Control Technology'' (BACT). 
Calpine and Pacific Gas and Electric's new power plant in California 
has voluntarily attained this standard already, so we have a general 
picture of what efficiency targets such a permit would require. When 
will EPA complete guidance explaining to these sources what EPA 
believes the best technology to be?
    Answer. EPA worked with the Clean Air Act Advisory Committee to 
establish a work group comprised of States, industry, and other 
stakeholders that focused initially on the BACT requirement, including 
information and guidance that would be useful for EPA to provide 
concerning the technical, economic, and environmental performance 
characteristics of potential BACT options. In addition, the work group 
identified and discussed approaches to enable State and local 
permitting authorities to apply the BACT criteria in a consistent, 
practical and efficient manner. The work group issued its phase I 
report in February 2010.
    As a result of the work group's recommendations, EPA is developing 
technical information and guidance to assist sources and permitting 
authorities as they begin to address GHGs in PSD permitting actions. 
EPA plans to issue guidance before January 2, 2011, the date that the 
permitting requirements will begin for large sources of GHGs that 
already require permits for other pollutants.

                              STATE GRANTS

    Question. Your budget proposes a $25 million increase for grants to 
States to ramp up their ability to issue GHG permits in fiscal year 
2011. How do you expect States to use these funds?
    Answer. States with approved or delegated permitting programs also 
will be incorporating new climate change requirements into their 
permitting programs in fiscal year 2011. The $25 million increase for 
State grants in fiscal year 2011 will assist in avoiding delays in 
evaluating and approving permits. In consultation with the States, 
funding will be allocated to the States based on the number of sources 
to be permitted, the total emissions from the facilities to be 
permitted, and the amount of funding the State is matching under their 
existing grant workplan.
    Question. How many permits will they be expected to process in 
fiscal year 2011?
    Answer. After the EPA issues the tailoring rule, the EPA can be 
more specific about how many sources will be affected and how the new 
requirements will impact State workloads.
    Question. Will additional funds be required in the outyears as 
States assume more permitting responsibilities?
    Answer. At this point we are unable to determine whether States may 
need additional funding in the outyears as they assume more permitting 
responsibilities. This is dependent on the number of sources that will 
be subject to additional permitting requirements and the extent to 
which permitting fees offset the cost of running the program.

                              PERCHLORATE

    Question. EPA has been studying perchlorate for years, and the 
links between the chemical and health problems are well known. Yet the 
Bush administration refused to set a drinking water limit on 
perchlorate. You announced last August that EPA was going to re-
evaluate the decision and the scientific data on the health effects 
from perchlorate exposure. I am concerned that EPA has not said when it 
will finish this new review and hope that this is not a repeat of the 
Bush administration's delaying tactics. When will EPA finish its review 
and announce whether it will regulate perchlorate?
    Answer. EPA plans to complete its drinking water regulatory 
determination for perchlorate in 2010. We continue to evaluate the 
extensive information in the public comments we have received on this 
action. If the determination is to regulate, EPA will move 
expeditiously to develop a national drinking water standard for 
perchlorate and conduct the health risk reduction cost analyses and 
consultations required in developing such a rule.

                           BISPHENOL-A (BPA)

    Question. I am very concerned about how pervasive chemicals are in 
the environment and how little is known about whether these chemicals 
are really safe. BPA, for example, has been linked to cancer and 
infertility, and yet it is widely used in food packaging and 
containers. I have introduced legislation to ban these uses. Last 
December, EPA announced it was taking action against four chemicals of 
concern, including phthalates, but that action against BPA was still 
being developed.
    Given all we know about the harms posed by BPA, why hasn't EPA 
already taken some action against this chemical?
    Answer. On March 29, 2010, EPA posted the action plan for BPA, in 
line with the Administrator's announcement to complete and post an 
initial four action plans in December 2009, with additional plans at 
approximately 4-month intervals. On December 29, 2009, EPA made public 
the first four action plans on phthalates, short-chain chlorinated 
parraffins, perflourinated chemicals, and Polybrominated diphenyl 
ethers. EPA's plan for BPA focuses on the environmental impacts of BPA, 
and will look to add BPA to EPA's list of chemicals of concern under 
section 5(b)(4) of the Toxic Substances Control Act, and require 
testing related to environmental effects. EPA remains committed to 
protecting human health, but notes that most human exposure, including 
exposure to children, comes through food packaging materials under the 
jurisdiction of Food and Drug Administration (FDA). EPA will continue 
to consult and coordinate closely with the FDA, the Centers for Disease 
Control and Prevention, and the National Institute of Environmental 
Health Sciences to better determine and evaluate the potential health 
consequences of BPA. The results of this assessment work will factor 
significantly in any future EPA decisions to address potential risks to 
human health resulting from uses within EPA's jurisdiction. More 
information can be found at http://www.epa.gov/oppt/existingchemicals/
pubs/actionplans/bpa.html.
                                 ______
                                 
             Questions Submitted by Senator Robert C. Byrd

                        ECONOMIC DIVERSIFICATION

    Question. In June 2009, the administration released a Memorandum of 
Understanding (MOU) entitled ``Implementing the Interagency Action Plan 
on Appalachian Surface Coal Mining.'' The MOU noted that ``Federal 
agencies will work . . . to help diversify and strengthen the 
Appalachian regional economy and promote the health and welfare of 
Appalachian communities. This interagency effort will have a special 
focus on stimulating clean enterprise and green jobs development . . 
.''
    What new programs or initiatives is the EPA proposing to advance 
economic diversification in Appalachia?
    Answer. Pursuant to the June 11, 2009 interagency MOU, EPA 
continues to work with the Council on Environmental Quality and other 
Federal agencies to diversify and strengthen the Appalachian regional 
economy. EPA is supporting upcoming community outreach meetings 
throughout Appalachia, led by U.S. Department of Agriculture, to foster 
community development and regional collaboration. Additionally, EPA is 
continuing to support the existing E\3\ initiative (Economy, Energy, 
and Environment), in coordination with the Departments of Commerce, 
Energy, and Labor, and the Small Business Administration, in 
identifying opportunities to apply E\3\ in Appalachia. The State of 
West Virginia recently announced a new small business program that will 
be coordinated within the E\3\ framework including EPA's Green 
Suppliers Network.
    Question. What new resources is the EPA requesting to advance 
economic diversification in Appalachia?
    Answer. EPA continues to work with Federal agencies to identify 
promising and coordinated opportunities for promoting Appalachian 
economic diversification. EPA continues to provide staff resources and 
technical expertise to support upcoming Appalachian listening sessions 
and expanding E3 activities (Economy, Energy, and Environment) in 
Appalachia. EPA continues to evaluate how its core programs, such as 
Brownfields, water and wastewater infrastructure, and E3, can be used 
toward promoting Appalachian economic diversification.
    Question. In addition to devoting greater amounts of funding to 
programs such as Brownfields Redevelopment, and the Clean, Green 
Schools Program, how will EPA also use its own technical expertise, and 
the expertise and resources of other Federal partners, in order to 
strengthen the support and collaboration that are necessary for 
grantees' projects to be successful in achieving long-term viability?
    Answer. The EPA's goal is for all grant programs to become 
successful and achieve long-term viability. The general approach is to 
work in partnership with States, tribes, and local governments to 
promote and encourage effective development and implementation of 
environmental programs. An essential part of this is ensuring that 
nongovernmental organizations and the general public have and use 
reliable/valid scientific information and exposure prevention 
techniques and tools when making decisions that impact human health and 
the environment. To this end, the EPA deploys a suite of approaches to 
support its grantees. These approaches include:
  --Using all available legislative authorities as vehicles for 
        comprehensive grantee assistance.
  --Providing focused outreach and technical assistance to increase 
        adoption and deployment of assessment tools.
  --Continual improvement of transparency and coordination in sharing 
        information and providing technical assistance, tools and 
        materials to partners and stakeholder groups, including 
        information on emerging issues.
  --Focusing on improving coordination across the EPA to ensure that 
        EPA's policies and programs explicitly consider and use the 
        most up-to-date data and methods.
  --Working with other Federal partners to improve government-wide 
        support in implementing legislative mandates and coordinating 
        outreach and technical assistance.
    The Brownfields program is one example of how EPA uses its 
technical expertise and the expertise and resources of other Federal 
partners to ensure that grantee's projects will be successful in 
achieving long-term viability. Through dedicated project officers, 
workshops, and guidance documents, EPA provides technical assistance, 
outreach, coordination, and other assistance as quality assurance 
reviews to support grantees' projects of assessing and cleaning up 
Brownfield sites. To further support the effort to assess and cleanup 
Brownfields properties, EPA recently initiated a new pilot program 
which will provide grants to disadvantaged communities for the purpose 
of preparing an ``area-wide'' plan for sustainable redevelopment, which 
is targeted to increase the likelihood of attracting private investors 
and Federal and State grant funding for implementation. The Brownfields 
program is also engaged with Federal partners on several cross-cutting 
priorities. For example, under the HUD-DOT-EPA initiative, EPA is 
engaging with other Federal agencies to maximize the expertise offered 
under the Brownfields technical assistance and resources provided 
directly to communities to generate sustainable community 
redevelopment. EPA is also participating in the White House Council on 
Automotive Communities and Workers to find productive and efficient 
ways to bring Federal resources and technical assistance to communities 
suffering from the effects of economic disruption. Through these 
collaborative efforts, EPA will continue to look for ways to align and 
coordinate the disparate Federal resources to help communities address 
their environmental and economic development challenges.

                          PUBLIC HEALTH ISSUES

    Question. What are the levels of metals and other contaminants in 
domestic wells and public water systems in communities downstream from 
mountaintop mining activities?
    Answer. Little data are available that describe the impact of 
mountaintop mining activities on domestic wells and public water 
systems in Appalachia, especially private wells. Information on the 
location of drinking water supplies and private wells in relation to 
surface coal mining operations is inconsistently collected by States as 
part of permit applications under the Surface Mining Control and 
Reclamation Act (SMCRA). EPA regions are working with the Corps of 
Engineers, the Office of Surface Mining (OSM), and States to improve 
data-sharing on the relationship between mountaintop mining activities 
and drinking water wells, and to evaluate potential drinking water 
impacts from proposed surface mining projects. Because nearby 
communities often rely on private wells (those that serve fewer than 25 
people and have fewer than 15 connections) that are not regulated by 
EPA, data collection poses additional challenges.
    With the Public Water System Supervision grant programs, States or 
primacy authorities track any violations of Maximum Contaminant Levels 
(MCLs) or treatment techniques at public water systems, both community 
and noncommunity water systems, that serve more than 25 persons. Under 
the Safe Drinking Water Act, EPA is required to track violations 
occurring in public water systems when contaminant levels exceed the 
MCL. There have been very few violations of MCLs for metal contaminants 
in Appalachia. Such violations, even if discovered, would represent 
deficiencies in finished drinking water, not source water.
    Question. Do you have a record of water quality violations in 
public water systems in communities downstream from mountaintop mining 
activities?
    Answer. As referenced above, little data are available that 
specifically connect the impact of mountaintop mining activities on 
domestic wells and public water systems in Appalachia, especially 
private wells. There are few public water systems with MCL violations 
from metals in Appalachia.
    It is worth noting that under the Safe Drinking Water Act, EPA 
tracks public water systems violations that occur in finished water 
that has already undergone treatment. As a result, public water system 
violations reported to EPA are not meaningful indicators of source 
water quality prior to any treatment.
    Question. What are the levels of toxic air pollutants and 
particulate matter in communities proximate to surface mining 
operations and coal processing facilities?
    Answer. Most of EPA's monitoring for particulate matter and toxic 
air pollutants is focused in areas where populations and potential 
exposures are highest. We have limited information about levels of 
pollutants near surface mining operations and coal processing 
facilities. Surface coal mining operations are generally regulated by 
the Department of the Interior's SMRCA. EPA recently finalized new 
source performance standards for new coal preparation/processing 
facilities which integrated with certain SMRCA requirements. These 
standards reflect the degree of emission limitation achievable through 
the application of the best system of reduction that has been 
adequately demonstrated.
    Question. What are the human health impacts from mountaintop 
mining?
    Answer. The scientific literature is increasingly documenting a 
relationship between coal mining practices and impacts to human health 
in communities near coal mines. The potential human health impacts of 
these mining practices were most recently described in a peer-reviewed 
analysis by Palmer et al. in Science, as part of a literature review of 
the ecological effects of Appalachian surface coal mining. 
Additionally, research by Hendryx and Ahern (2009) demonstrates 
significant and growing gaps in age-adjusted mortality between coal 
mining areas of Appalachia and non-coal mining areas, and that higher 
rates of specific illnesses are consistent with a hypothesis of 
exposure to pollution from mining activities. A new study by Hitt and 
Hendryx (2010 demonstrates significant relationships between coal 
mining and both ecological integrity and human cancer mortality in West 
Virginia. While such research does not directly identify specific 
mining practices or operations as the source of such impacts, their 
conclusions point to negative and significant human health consequences 
from mountaintop mining that results in impaired watershed health and 
decreased environmental quality.
    Question. Are people drinking ground or surface waters that are 
significantly impacted by alkaline mine drainage? Can you tell us how 
many drinking wells you have sampled and what fraction of those have 
selenium present at levels that are higher than the background levels 
in nonmining areas?
    Answer. As discussed above, data on the location of private 
drinking water wells, and on the impacts of surface coal mining 
activities on private wells or public water systems, are currently 
lacking for a variety of reasons. EPA has not sampled private 
residential wells and does not have any data showing that water systems 
have abnormal alkalinity. Appalachian States may have analytical 
results available for private wells.
    It is worth noting that under the Safe Drinking Water Act, EPA 
tracks public water systems violations that occur in finished water 
that has already undergone treatment. As a result, public water system 
violations reported to EPA are not meaningful indicators of source 
water quality.

                           SELENIUM POLLUTION

    Question. What are the impacts of high levels of selenium exposure 
on the health of humans and animals? Is there recent or emerging 
evidence that is of concern to EPA?
    Answer. Studies by Hawkes and Keim (2003) identified human data 
suggesting the potential for adverse thyroid effects such as increases 
in body weight when the diet is supplemented with excess selenium. The 
same study also saw the potential for adverse effects on the thyroid 
when the diet was made deficient in selenium.
    Selenium is an essential nutrient for humans and animals. Either 
too little or too much selenium can cause adverse effects in humans. 
The EPA reference dose is one that was developed to protect against 
clinical selenosis (increased blood clotting time, reduced serum 
glutathione, hair loss, nail malformation, and/or loss) based on data 
from human subjects living in an area of China that had high levels of 
selenium in the soils.
    In animals, high levels of selenium are of concern primarily for 
egg-laying vertebrates, such as fish and birds. Mammals are less 
sensitive than fish and birds. For fish the most sensitive effect is 
the occurrence of deformities in offspring spawned from selenium-
exposed adults. For birds the most sensitive effect is a reduction in 
hatchability of eggs laid by exposed adults. Recent scientific evidence 
better defines the thresholds for these effects but has clarified that 
the risks of selenium are confined to a few types of pollution sources, 
such as surface coal mining.
    Question. What happens to selenium at each mountaintop mining site?
    Answer. At mountaintop mining sites, placement of overburden in 
valley fills can result in increased surface area available for water 
contact with rock particles. Water runoff can have higher 
concentrations of major ions and some trace metals, including selenium. 
This can result in elevated selenium concentrations in streams and 
other surface waters, and potential toxicity to aquatic organisms. In 
West Virginia and eastern Kentucky, the source of the selenium at 
mountaintop mining sites is thought to be the organic black shale 
material associated with the coal seams in this area. The selenium 
leaches from the organic black shale material and migrates down 
gradient into the aquatic ecosystems and adjacent terrestrial areas.
    Question. Is it accumulating in the plants used to reclaim 
abandoned mine lands and does this exposure pathway pose a risk to 
upland wildlife?
    Answer. Most mining companies in Appalachia use a standard set of 
plants in the reclamation of the mine sites. The Colorado State 
University Cooperative Extension (Series No. 6.109) has researched and 
classified plant species based on their ability to uptake and 
accumulate selenium. Even though most plant species are 
nonaccumulators, almost all plants will absorb selenium if grown in 
seleniferous soils.
    Question. To what extent is selenium accumulating in aquatic 
sediments? Is this storage temporary, and will it eventually release 
hazardous levels of selenium over an extended period of time?
    Answer. Selenium can cycle in aquatic habitats by moving in and out 
of sediments. A large portion of the total selenium in a stream or 
reservoir may be present in sediments, deposited directly from the 
water or from plants and animals as they die and decompose. However, 
this pool of selenium is not permanently removed from the system. 
Biological activity, water chemistry changes, and physical disturbance 
can mobilize selenium back into water and organisms. This means that 
the selenium in sediments may remain active, and may provide a source 
of pollution to bottom-dwelling invertebrates and the fish that feed on 
them. Case studies show that selenium in sediments can recycle into the 
water and food chain for decades after selenium inputs are stopped.
    Question. To what extent is selenium accumulating in aquatic plants 
and animals, and other wildlife, both on-site and downstream?
    Answer. Selenium concentrations have been found to be elevated 
downstream of mountaintop mining operations and valley fills. Selenium 
can bioaccumulate through the aquatic food web, and elevated levels 
have been found in fish in the Appalachian mining region. Scientific 
literature suggests that many Appalachian streams surveyed downstream 
of mountaintop mining operations and valley fills exceed EPA's national 
recommended chronic Ambient Water Quality Criterion for selenium. 
Excessive selenium has been associated with increased death and 
deformities in fish and reduced hatching in birds in studies of coal 
overburden effluents in other mining regions. A recent report from the 
West Virginia Department of Environmental Protection (WVDEP) showed 
that fish egg concentrations in largemouth bass exceeded the proposed 
selenium fish tissue egg ovary criterion by approximately four-fold.
    Question. Are toxic levels being exceeded?
    Answer. The WVDEP has completed several studies on accumulation of 
selenium in the eggs of several species of waterfowl, amphibians and 
fish. Results suggest that selenium may be approaching levels toxic to 
aquatic life and that adverse effects on wildlife within watersheds 
studied in West Virginia may be occurring. These adverse effects 
include fish deformities and poor hatch and survival of larvae. 
Additional studies are ongoing.
    Question. Are there any State or Federal threatened or endangered 
species at risk?
    Answer. There may be State or federally listed species at risk. 
Several endangered species are found in Central Appalachia, including 
several species of freshwater mussels. The U.S. Fish and Wildlife 
Service believe that freshwater mussel populations within the Kanawha 
River watershed are being threatened by upstream mining activities, 
specifically at the Kanawha Falls and the Elk River watersheds. The 
West Virginia Division of Natural Resources recently described a new 
species of fish--diamond darter--as existing only in the Elk River 
watershed, which is threatened by upstream mining activity. This 
species is being evaluated by the Fish and Wildlife Service but is not 
yet listed.
    Question. Are there any birds at risk, such as geese or migratory 
waterfowl?
    Answer. There may be bird species at risk from selenium. Selenium 
has been documented to have toxic effects on waterfowl from areas 
around the world; however, the WVDEP study on the Mud River watershed 
did not document any problems with birds at this particular watershed. 
The WVDEP does not plan to expand the investigation any further at this 
time.
    Question. How long does selenium persist in stream and reservoir 
sediments, and to what extent is selenium pollution from prior decades 
contributing to selenium pollution today?
    Answer. Selenium can persist in stream and lake sediments for a 
long time, but selenium deeper than a few centimeters is generally 
described as nonbioavailable. Historic mining in these watersheds may 
have minimally contributed to the selenium problem. However, current 
large scale mining activities are exposing the organic black shales on 
a much greater scale, which is believed to result in greater selenium 
exposure and environmental impacts, as discussed above with respect to 
impacts to fish populations.
    Question. How far downstream are elevated concentrations of 
selenium showing up in water, sediment, plants, and animals?
    Answer. Selenium levels can be elevated several miles downstream of 
mine sites. One measurement of elevated levels of selenium in water 
comes from the State's biennial assessment of water quality conditions 
under sections 303(d) and 305(b) of the Clean Water Act. Water segments 
with elevated selenium levels (segments with the selenium criterion not 
met) are placed on the State's list of impaired waters.
    Surface coal mining practices with the potential to expose 
selenium-bearing strata are most likely in West Virginia and Kentucky. 
In West Virginia, 29 water segments have been placed on the impaired 
waters list. Three of the 29 have since been removed from the impaired 
water listing. Of the remaining 26, 13 have had studies completed to 
determine necessary steps to restore the conditions in the segment to 
allow the selenium criterion to be met. Thirteen stream segments were 
listed for selenium impairments on the most recent completed assessment 
in 2008. EPA is not aware of any 303(d) listings in Kentucky with 
selenium listed as the pollutant of concern.
    Question. What is the degree of groundwater contamination by 
selenium, and what is the physical extent of the contamination? Is 
contaminated groundwater able to enter surface water?
    Answer. EPA does not have comprehensive data on the degree or 
extent of groundwater contamination by selenium, but we are working 
gather data relating to drinking water complaints. We do know, based on 
an EPA-funded study in selected areas of West Virginia and Kentucky, 
that selenium-contaminated water is discharging from the toes of valley 
fills at concentrations greater than 5 parts per billion (ppb); 50 ppb 
is the maximum contaminant level for selenium. Contaminated groundwater 
can enter surface water, depending on the aquifer and its hydrologic 
connection to streams.

                       EXTENT AND FORM OF IMPACTS

    Question. How is EPA building upon the work that was conducted as 
part of the programmatic environmental impact statement on mountaintop 
mining and valley fills, in order to maintain an updated and detailed 
understanding of the geographic extent of mountaintop mining/valley 
fill operations in the central Appalachians? Are the permitting 
agencies capable of estimating watershed scale impacts at this time, or 
have they obtained such estimates from third parties?
    Answer. The programmatic Environmental Impact Statement concluded 
that approximately 1,200 miles of headwater streams were directly 
impacted by mountaintop mining operations between 1992 and 2002. This 
represents a loss of almost 2 percent of the stream miles in the study 
area during this 10-year period. Furthermore, the permitted area for 
mountaintop mining in the study area over the same 10-year period was 
estimated at 403,810 acres. At that time, both mine footprint and 
stream losses were projected to double by 2012. The U.S. Government 
Accountability Office (USGAO, 2009) recently updated this inventory by 
reviewing permits issued between 1990 and 2008. However, updated 
estimates of stream loss and other cumulative impacts associated with 
these operations are not yet available.
    Question. Do accurate maps exist and, if so, are they being used to 
guide monitoring and evaluation?
    Answer. Large scale maps depicting impacts in select areas of the 
Appalachian region exist, and are being used where available. 
Typically, however, resolution on these maps is not fine enough to be 
used for site-specific monitoring. EPA and our other Federal and State 
regulatory partners are working to improve our capabilities in this 
regard, but we are not currently at the point of mapping impacts in all 
watersheds. To that end, however, EPA is working with the OSM on 
collecting and sharing geospatial data in order to evaluate existing 
impacts and better inform decisions on proposed surface coal mining 
projects.
    Question. What evidence exists to suggest that the runoff or export 
of mining-derived pollutants (sulfates, manganese, selenium, aluminum, 
etc.) declines following reclamation of mountaintop mining/valley fill 
projects?
    Answer. According to a draft EPA review of scientific peer-reviewed 
literature, there is no evidence that current reclamation approaches 
reduce conductivity downstream of valley fills. For example, in larger 
streams of the Kanawha Basin, Paybins et al. found that median 
concentrations of sulfate had increased 1.6 times between 1980 to 1998 
(Paybins et al. 2000).
    Question. How long does the process take?
    Answer. Concentrations of metals that are not soluble in alkaline 
conditions, including total iron, manganese, and aluminum, decreased by 
approximately one-third to one-half during the 1980 to 1998 time 
period. Their decrease may reflect the increased sources of alkaline 
water from valley fills.
    Question. We have heard a lot about mayflies, and it is my 
understanding that their loss indicates unsuitable water quality. But 
are there other species being lost as well? What impact has mountaintop 
mining had on the loss of species other than mayflies? For example, 
could the loss of sensitive animals like salamanders wind up negatively 
affecting the larger animals, such as bear?
    Answer. Mayflies have long been recognized as important indicators 
of stream ecosystem health and are a very important part of the native 
organisms in the central Appalachian streams. Significant effects on 
macroinvertebrate communities, including other aquatic insects, 
crayfish, and other invertebrates from burial, loss of habitat, and 
water quality impacts from mountaintop mining activities will be 
transmitted up the ecosystem. This is true especially of sensitive 
species, such as salamanders, some fish species, and insectivorous 
birds and bats. Outside the aquatic ecosystem, land clearing from 
mining activities can also adversely affect bird and bat species.
    The Central Appalachians ecoregion where the majority of 
mountaintop mining is located has some of the greatest aquatic animal 
diversity of any area in North America, especially for species of 
amphibians, fishes, mollusks, aquatic insects, and crayfishes. 
Salamanders in particular reach their highest North American diversity 
in this ecoregion. For example, nearly 10 percent of global salamander 
diversity is found within streams of the Southern Appalachian 
Mountains. It is likely that many of the aquatic organisms inhabiting 
these stream systems are eliminated or displaced when headwater streams 
are buried or blasted during the mining process. It has also been 
documented that other specialized wildlife such as some neotropical 
migrant birds and forest amphibians rely on natural headwater streams 
and adjacent forest types exhibited in this ecoregion. Finally, it is 
unclear what impact, other than habitat fragmentation and displacement, 
surface mining has on larger wildlife populations such as bear, that 
are not exclusively dependent on aquatic resources for their food 
supply.

                   REGULATION, COMPLIANCE, MITIGATION

    Question. How many times over the last decade have mining companies 
been cited for violating water quality standards associated with 
mountaintop mining/valley fill activities?
    Answer. With respect to the number of violations, we are not able 
to determine violations specifically associated with mountaintop mining 
or valley fill activities, but we can provide data on violations 
involving bituminous coal or lignite surface mining more broadly. 
Please note that this category includes bituminous coal and lignite 
preparation plants that perform such activities as cleaning, crushing, 
screening, or sizing that are operated in conjunction with a mine site, 
or operated independently, as well as conventional surface mining 
operations. To date we have found 15 permitted bituminous coal or 
lignite surface mining permitted facilities that have violated their 
National Pollutant Discharge Elimination System (NPDES) permit limits 
since January 2000. The facilities are located in Kentucky (1), West 
Virginia (1), Illinois (7), Louisiana (1), Montana (4), and Utah (1) 
and violated their permits by either exceeding their limitations, 
failing to report discharge monitoring data, or by reporting a single 
event violation. This number is out of 857 NPDES permits for bituminous 
coal or lignite surface mining facilities for which we have permit and 
effluent limitation data. The following chart shows which facilities in 
which States had what type of violation.

----------------------------------------------------------------------------------------------------------------
              State                  Permit number                   Facility                   Violation type
----------------------------------------------------------------------------------------------------------------
IL..............................  IL0061166..........  JADER FUEL COMPANY, INC.............  Single event
IL..............................  IL0061247..........  FREEMAN UNITED COAL--INDUSTRY.......  Single event
IL..............................  IL0064611..........  JADER COAL COMPANY..................  Single event
IL..............................  IL0072745..........  KNIGHT HAWK COAL, LLC...............  Single event
IL..............................  IL0073351..........  ARCLAR COMPANY, LLC.................  Single event
IL..............................  IL0078026..........  KNIGHT HAWK COAL, LLC...............  Single event
IL..............................  IL0078565..........  Sugar Camp Energy, LLC..............  Single event
KY..............................  KY0043133..........  HARLAN CUMBERLAND COAL TOTZ.........  Failure to report
LA..............................  LA0064076..........  DOLET HILLS LIGNITE CO., LLC........  Single event
MT..............................  MT0000892..........  DECKER COAL CO (WEST MINE)..........  Single event
MT..............................  MT0023965..........  WESTERN ENERGY COMPANY..............  Single event
MT..............................  MT0024210..........  DECKER COAL CO (EAST MINE)..........  Single event
MT..............................  MT0021229..........  WESTMORELAND RESOURCES, INC.........  Single event
UT..............................  UT0024368..........  Crandall Canyon Mine................  Single event
WV..............................  WV0050717..........  UPSHUR PROPERTY, INC................  Exceeded limits
----------------------------------------------------------------------------------------------------------------

    Question. What have companies done in response to these violations? 
What additional protections have been implemented by violators to 
prevent future water quality degradation?
    Answer. Two recent civil judicial settlements--with Massey Energy 
Company (Massey) in 2008 and Patriot Coal Corporation (Patriot Coal) in 
2009--provide examples of what mining companies have done in response 
to Clean Water Act violations and to prevent future water quality 
degradation:
  --In its 2008 Federal consent decree, Massey agreed to invest 
        approximately $10 million to develop and implement a set of 
        procedures to prevent future violations. Massey agreed to 
        implement an innovative electronic tracking system that allows 
        the company to quickly address compliance problems and correct 
        any violations of permit limits. This measure is part of a 
        comprehensive environmental compliance program that Massey has 
        agreed to implement under the decree, which includes in-depth 
        internal and third-party audits, employee training, and a plan 
        to prevent future slurry spills. Massey also agreed to set 
        aside 200 acres of riverfront land in West Virginia for 
        conservation purposes and is required to perform 20 stream 
        restoration projects downstream from mining operations.
  --In its 2009 Federal consent decree, Patriot Coal agreed to 
        implement extensive measures to prevent future violations and 
        to perform environmental projects at a total estimated cost of 
        $6 million. Patriot Coal will develop and implement a company-
        wide compliance-focused environmental management system 
        including: creation of a database to track information relevant 
        to compliance efforts; conducting regular internal and third-
        party environmental compliance audits; implementing a system of 
        tiered response actions for any possible future violations; and 
        conducting annual training for all employees and contractors 
        with environmental responsibilities.
    Question. What is EPA's protocol for measuring stream ecosystem 
structure and function (for instance, how much water was running 
through the stream before the mining occurred)? If there is not a 
functional assessment available, how have permittees been complying 
with the Clean Water Act regulations?
    Answer. EPA is currently working with the Huntington District Corps 
of Engineers to develop an assessment protocol to appropriately 
describe the ecological condition of Appalachian headwater streams and 
to develop an accounting system that assures functions will be 
effectively compensated. The protocol has recently been advertised on 
public notice by the Huntington district. EPA has been working to 
incorporate mitigation performance measures within the permit 
conditions to ensure that the stream mitigation proposal meets the 
requirements of the Clean Water Act and the 2008 Compensatory 
Mitigation Rule. We strongly agree with the importance of providing 
permit applicants with technically sound, consistent, and cost 
effective methods for meeting the information requirements of the 
agencies' regulations.
    There are numerous existing stream assessment protocols available 
for use by mining companies applying for CWA permits. In lieu of a 
single approved assessment protocol, applicants may currently select an 
existing assessment protocol of their choosing and submit their 
functional analysis to the Corps as part of their permit application. 
The Corps generally relies on information submitted by permit 
applicants to determine if proposed mining projects comply with 
requirements of the CWA regulations. EPA believes that the development 
of a standard assessment protocol that ensures scientifically sound and 
repeatable evaluations of high-gradient streams in the coal fields of 
Central Appalachia will better ensure effective and consistent 
implementation of regulatory requirements.
                                 ______
                                 
                Question Submitted by Senator Ben Nelson

         COMBINED SEWER OVERFLOW (CSO)--INFRASTRUCTURE IN OMAHA

    Question. Like hundreds of localities across the country, the city 
of Omaha administers a combined sewer system that is no longer able to 
perform at a level necessary to comply with the Clean Water Act. As 
such Omaha was directed by the Environmental Protection Agency (EPA) to 
develop a long-term control plan to upgrade the sewer system. The city 
has completed this task and has in place a process to fund the 
necessary upgrades via user fee increases. The infrastructure upgrades 
associated with this project are going to cost well more than $1.5 
billion and result in significant fees on the community.
    While I applaud the city of Omaha for addressing this issue head on 
I'd prefer to see the Federal Government, as the entity mandating these 
changes, play a greater role in the financing of the required upgrades.
    Does the EPA have a plan for addressing the costs that localities 
will incur in order to upgrade combined sewers outside of State 
revolving loan funds and/or allowing localities to completely self-
finance? If so, what is that plan and did EPA describe the plan in its 
fiscal year 2011 budget request?
    Answer. The Clean Water State Revolving Fund (CWSRF) program is the 
EPA's method for assisting States and localities to address water 
infrastructure improvements, including CSOs. Since 1988 and through 
2009, the CWSRF has provided approximately $7.2 billion in assistance 
for CSO projects thereby helping communities across the country improve 
their respective water infrastructure systems. The fiscal year 2011 
CWSRF request level represents a substantial increase more than 
requested and enacted levels prior to fiscal year 2010 and the fiscal 
year 2009 Recovery Act. The fiscal year 2011 CWSRF request level is a 
190 percent increase more than the fiscal year 2009 enacted level.
    The fiscal year 2011 budget request contains language requiring 
that up to 30 percent of the CWSRF funds be used by the States to 
provide grants, forgiveness of the principal, or negative interest 
loans. This provision will help communities that otherwise could not 
afford a standard State revolving fund loan.
                                 ______
                                 
             Questions Submitted by Senator Lamar Alexander

                   OFFICE OF PESTICIDE PROGRAMS (OPP)

    Question. Congress's key purpose in adopting procedural 
requirements in the Administrative Procedure Act and other statutes 
that Environmental Protection Agency (EPA) implements, is to allow for 
meaningful public participation in the regulatory process. This 
participation ensures that those affected by EPA's regulations have a 
voice in the process. It also ensures that EPA bases its decisions on 
sound science and the all available scientific expertise on a topic. On 
October 7, 2009, EPA publicized its notice that it would re-evaluate 
Atrazine and called for written comments by October 23, 2009. This gave 
the public only 16 days to prepare for and provide written comment on a 
complicated scientific review. Is 16 days really sufficient lead-time 
to ensure meaningful public participation and to ensure that EPA 
benefits from the best thinking of the many non-EPA participants with 
expertise in the science underlying the registration of Atrazine?
    Answer. We believe there was sufficient lead time for public 
participation in the November meeting on Atrazine because the meeting 
was not held to discuss or review the substantive science issues; it 
merely presented the proposed plan for re-evaluation in the upcoming 
year. The Federal Register notice announcing the meeting (October 7, 
2009, 74 FR 51593), indicated that the November Scientific Advisory 
Panel (SAP) meeting was an informational meeting only, to inform Panel 
members and the public about EPA's plans for three SAP meetings planned 
for February, April, and September 2010. The meeting was intended to 
communicate and clarify the nature, scope, and breadth of the Atrazine-
related discussions planned for those three 2010 SAP meetings. Although 
EPA encouraged submission of written comments by October 23, the notice 
said the EPA would accept written comments until the day of the 
meeting, November 3, 2009 (thereby providing an additional 11 days for 
the submission of written comments). Due to the informational nature of 
the November Atrazine meeting, we believe the time allotted for public 
comment was adequate.
    The October 2009 notice also provided information relevant to the 
upcoming SAP meetings including how and when to participate. Background 
documents for the Atrazine SAPs are available through the EPA public 
docket (http://www.regulations.gov) and the Federal Insecticide, 
Fungicide, and Rodenticide Act (FIFRA) SAP home page (www.epa.gov/
scipoly/sap).
    Question. EPA announced its scientific review plan for Atrazine on 
November 23, 2009--less than 1 month after closing the public comment 
period. How many studies does EPA have on file on Atrazine?
    Answer. There are more than 6,000 studies in EPA's files on the 
human health and environmental effects of Atrazine.
    Question. How many SAPs have been created to review Atrazine?
    Answer. Prior to the November 2009 informational meeting of the 
SAP, the EPA has held seven SAP reviews exclusively on Atrazine 
(September 1988, June 2000, June 2003, July 2003, October 2007, 
December 2007, and May 2009). Some of these meetings were to address 
human health issues and others were to address ecological effects 
issues.
    Question. What is the cost of empanelling a SAP?
    Answer. The resources associated with organizing, convening, and 
developing the final report for the April FIFRA SAP meeting is 
estimated to be approximately $200,000. This cost estimate is 
comparable to the cost of a typical SAP meeting.
    Question. What is the mean number of studies for all registered 
products?
    Answer. Since there are more than 6,000 Atrazine studies and there 
are 6 technical registrations, the mean number is approximately 1,000 
studies. For a new food-use pesticide active ingredient registration, 
EPA would require at least 100 studies.
    Question. Is this adequate time, given the number of studies that 
EPA has on file on Atrazine?
    Answer. Yes, this was adequate time for EPA staff working on 
Atrazine to prepare. Most of the 6,000 studies on file for Atrazine 
were reviewed prior to the Atrazine Interim Reregistration Eligibility 
Decision (IRED) in 2003. In 2001, EPA developed a preliminary risk 
assessment based on many of these studies and published a risk 
assessment for public comment as part of the re-registration process. 
As a result, most of the stakeholders interested in the regulation of 
Atrazine are also very familiar with the body of Atrazine research, 
having followed developments closely over the last decade.
    In the 7 years since the 2003 IRED was issued, significant Atrazine 
research has been done, with more than 100 new studies available on its 
potential human health effects. These additional data have been 
received from the Atrazine registrants, or published in the peer-
reviewed open literature. EPA reviews these new data internally as 
quickly as possible within the overall framework of the program. For 
example, after the water monitoring data have been reviewed and quality 
controlled, the EPA makes these data available to the public via its 
Web page.
    Question. Is this adequate time given that EPA just re-registered 
Atrazine in 2006 and concluded it could be used without harm to humans?
    Answer. Yes, this is adequate time. The 2003 IRED was the EPA's 
decision on the individual chemical Atrazine, establishing data 
requirements and risk management measures for the uses of Atrazine and 
associated human health and environmental risks. However, Atrazine's 
re-registration eligibility and tolerance reassessment decisions could 
only be finalized once the cumulative assessment for all of the 
triazine herbicides was completed. The EPA's publication of the 
triazine cumulative risk assessment in 2006, therefore, finalized the 
EPA's Atrazine re-registration decision.
    Since the 2003 IRED was published, the EPA has continued its review 
of Atrazine as data have become available through IRED-required studies 
and water monitoring programs, published literature, registrant-
submitted studies, and EPA-sponsored studies. The OPP keeps in place an 
Atrazine team consisting of scientists and regulatory managers to 
ensure that the review of data and implementation of decisions reached 
in the 2003 IRED for Atrazine are current.
    OPP has received and reviewed ongoing monitoring data as a 
condition of re-registration. For example, the EPA has received an 
extensive amount of drinking water and ambient surface water monitoring 
data from the registrants of Atrazine as an ongoing condition of 
Atrazine's re-registration under the 2003 IRED. EPA continuously 
reviews and makes decisions based on these data. In accordance with the 
2003 IRED, the EPA has added 26 new community water systems into the 
monitoring program (as of April 2010) because they warranted closer 
scrutiny, and removed others where no immediate problems or violations 
were identified. Additionally, EPA is aware of recent Atrazine research 
in the fields of both epidemiology and laboratory toxicology. Moreover, 
three FIFRA SAP meetings have been convened by EPA to review new 
Atrazine research and methods to assess its risk since the re-
registration decision was reached, but prior to the 2009 decision to 
re-evaluate Atrazine.
    In sum, EPA scientists and regulatory managers have stayed abreast 
of developments in Atrazine research, and have continually kept the 
public informed about new data through the SAP review process.
    Question. On October 7, 2009, Assistant Administrator for the 
Office of Prevention, Pesticides and Toxic Substances Stephen Owens was 
been quoted by the New York Times in a story regarding EPA's plans to 
re-review the registration of Atrazine as saying that you at EPA ``have 
a question: Did the decisions made in previous administrations use all 
available science?'' Does this statement accurately reflect the basis 
for decisions at EPA regarding resource allocation, that EPA intends to 
reach back and re-consider the scientific decisions already made by EPA 
scientists?
    Answer. The EPA has an ongoing statutory responsibility to ensure 
that pesticides currently on the market continue to meet the standards 
in the FIFRA. Over the last 7 years since the Atrazine re-registration 
decision was completed, the EPA has received additional data and 
convened a number of FIFRA SAP to review new research and methods to 
assess Atrazine's risks. Moreover, the EPA has received an extensive 
amount of drinking water and ambient surface water monitoring data from 
the registrant, which was a condition of re-registration. EPA 
continuously reviews these data. In addition, the 1994 Atrazine special 
review covering cancer issues and drinking water remains open, 
highlighting the EPA's historical and ongoing focus on the potential 
health effects of Atrazine.
    Question. Is EPA reconsidering all of its own past scientific 
analyses?
    Answer. Consistent with our statutory mandate, EPA will revisit its 
past pesticide assessments whenever warranted by new information and at 
least every 15 years.
    Question. What is the basis for reconsideration?
    Answer. Atrazine is one of the most widely used pesticides in the 
United States and is the subject of significant scientific research and 
regulatory interest. Given the new body of scientific information, as 
well as the documented presence of Atrazine in both drinking water 
sources and other bodies of water, the EPA determined that this is an 
appropriate time to consider the new research and other information to 
ensure that our regulatory decisions about Atrazine protect public 
health. Therefore we are re-evaluating of Atrazine.
    In the 7 years since the IRED was issued, significant Atrazine 
research has been done, with close to 100 new studies available on its 
potential human health effects. The EPA has also received an extensive 
amount of drinking water and ambient surface water monitoring data from 
the registrants of Atrazine as an ongoing condition of re-registration. 
Given the new research and the availability of additional data on 
Atrazine in drinking water sources and other bodies of water, the EPA 
is reviewing the new data to ensure that our regulatory decisions about 
Atrazine are protective.
    EPA has continued to work on Atrazine since the 2003 IRED. EPA has 
convened a number of SAPs in the last 7 years to review issues 
concerning cancer, effects on amphibians, and evolving methods to 
assess ecological risks. The EPA also continues to review drinking 
water monitoring data collected as a condition of re-registration. EPA 
has already modified aspects of its 2003 decision based on the results 
of these SAPs and implementation efforts.
    Question. Just 3 months ago, EPA announced on its Web site that 
Atrazine is not likely to cause cancer in humans. Furthermore, the next 
round of registration review for Atrazine was already scheduled to 
begin in 2013, which would have ensured an appropriately deliberative 
process. Given EPA's tight budget and many competing environmental 
demands for resources, why is EPA abandoning its plan and now rushing 
to re-review Atrazine now?
    Answer. There is more than one review process by which EPA is 
looking at potential risks associated with the use of the pesticide 
Atrazine. These review processes have been integrated and are ongoing.
    In November 1994, EPA initiated a special review for the triazine 
pesticides, which at that time included Atrazine, Simazine, and 
Cyanazine. The special review process is set in motion when EPA has 
reason to believe that the use of a pesticide may result in 
unreasonable adverse effects on people or the environment. The basis 
for the special review of the triazines included the potential for 
cancer risks resulting from dietary or occupational exposure, as well 
as the potential for human health risks resulting from drinking water 
exposure caused by ground and surface water contamination.
    When the EPA initiated the re-registration process for Atrazine, it 
took Atrazine's special review into consideration. In 2000, the EPA 
determined that Atrazine was not likely to cause cancer in humans. 
However, in an abundance of caution, the 2003 Atrazine IRED committed 
the EPA to present to the FIFRA SAP its assessment of all available 
data about the potential carcinogenicity of Atrazine--both epidemiology 
studies and laboratory animal studies--including its review of 
forthcoming results from the National Cancer Institute's Agricultural 
Health Study. Thus the EPA's commitment to convene an SAP on Atrazine 
and cancer well pre-dated the EPA's Atrazine re-evaluation announcement 
of October 2009. The 2003 IRED also required a drinking water 
monitoring program, which is ongoing. The special review case for 
Atrazine remains open, highlighting the EPA 's historical and ongoing 
focus on Atrazine and its potential health effects from drinking water 
exposures.
    The 2003 IRED is the EPA's decision on the individual chemical 
Atrazine, establishing data requirements and risk management measures 
for the uses of Atrazine and associated human health and environmental 
risks. However, Atrazine's re-registration eligibility and tolerance 
reassessment decisions could only be finalized once the cumulative 
assessment for all of the triazine herbicides was completed. The EPA's 
publication of the triazine cumulative risk assessment in 2006, 
therefore, finalized the EPA's Atrazine re-registration decision.
    Atrazine is one of the most widely used pesticides in the United 
States and is the subject of significant inquiry and regulatory 
interest. Given the new body of scientific information since the 2003 
IRED, as well as the documented presence of Atrazine in both drinking 
water sources and other bodies of water, the EPA determined it 
appropriate to consider the new research and to ensure that our 
regulatory decisions about Atrazine protect public health.
    EPA is following an open and transparent process and has presented 
its approach to the SAP on several occasions to ensure the scientific 
soundness and integrity in the review process for Atrazine. In February 
of this year, the SAP met to focus on generic issues concerning 
approaches for reviewing epidemiology studies and their use within risk 
assessments. An SAP review scheduled for later in April will evaluate 
laboratory studies addressing the human health effects of Atrazine as 
well as sampling protocols used to monitor Atrazine levels in community 
water systems. The SAP will also meet this September. At the fall 
meeting, EPA will present and seek peer review of its evaluation of 
Atrazine health effects based on experimental laboratory studies and 
epidemiology studies. This review is intended to also include any new 
experimental laboratory data since the April SAP meeting.
    Also, EPA will present and seek peer review of its evaluation of 
Atrazine cancer and noncancer effects based on animal laboratory 
toxicology studies and epidemiology studies. This review is intended to 
include the most recent results from the National Cancer Institute's 
Agricultural Health Study.
    Question. Does this review currently underway satisfy the 
registration review of Atrazine scheduled for 2013--and if not why 
again require significant EPA resources for another review in 2013?
    Answer. The current re-evaluation will help address aspects of the 
registration review scheduled for 2013 that involve human health risk 
assessment. As a result, the current re-evaluation of Atrazine should 
reduce the resources needed to complete the registration review, and 
possibly reduce the scope of the EPA's final plan for Atrazine, which 
would likely be implemented between 2013 and 2019.
    As mentioned above, based on this evaluation, the EPA will decide 
whether to revise its current Atrazine risk assessments and whether new 
restrictions are necessary to better protect health. For more 
information on this and other Atrazine-related programs as well as the 
schedule for the upcoming SAP meetings, see the Atrazine Web page at 
http://www.epa.gov/pesticides/reregistration/atrazine/
atrazine_update.htm#ewmp.
    Question. Congress adopted the FIFRA, and the Federal Food, Drug 
and Cosmetic Act (FDCA), which together ensure the registration and 
safe use of herbicides in the United States. Under these laws, EPA 
established long-standing requirements to ensure the scientific 
integrity of data that underlies decisions under FIFRA and FDCA. EPA 
regulations require that studies relied on to register products meet 
Good Laboratory Practice standards (GLPs). These standards are intended 
to ensure the quality and reliability of information in a FIFRA study. 
Does EPA consistently require that all studies used to support FIFRA 
registrations meet these standards?
    Answer. EPA evaluates available information from all kinds of 
sources--pesticide companies, other governments, academia, or the 
published scientific literature--to ensure that its decisions are 
informed by the best science available. We look closely at every study 
to determine whether the results are scientifically sound. The fact 
that a study may not have been conducted under prescribed GLP 
conditions does not necessarily mean that it is of lesser quality than 
a GLP study. EPA scrutinizes the experimental procedures used and the 
overall quality of the resulting data for each individual study and 
then makes a weight of evidence judgment of the quality and robustness 
of that study.
    EPA has promulgated regulations that describe procedures designed 
to enhance the integrity of scientific data. This regulation is 
referred to as the GLP standards. GLP regulations cover broad topics 
ranging from archiving to personnel training. They also require that 
registrants or applicants for registration submit with any data 
intended to support registration a statement ``describing in detail all 
differences between the practices used in the study and those 
required'' by the GLP regulation. The regulations further provide that 
EPA ``may refuse to consider reliable for purposes of supporting an 
application for a research or marketing permit any data from a study 
which was not conducted in accordance'' with the regulation. As a 
result of this study-specific review, EPA may not require that a given 
study used to support a FIFRA registration meets every GLP standard 
because some failures to follow those standards do not result in data 
that are unreliable. It is possible that a study may not be fully GLP 
compliant for a reason that does not compromise the integrity or 
validity of the study (e.g., personnel training records may not have 
been provided).
    In sum, even when relying on non-GLP studies, the EPA adheres to 
its high standards of evaluating the integrity, quality, and robustness 
of the studies under consideration. Our analysis gives greater weight 
to better run studies and those findings confirmed by multiple sources. 
Ultimately, EPA looks at all of the studies to decide what the 
preponderance of evidence shows.
    Question. As EPA works through the latest Atrazine review, will EPA 
be requiring that all data used to make all of its decisions regarding 
the continuing use of Atrazine meet GLP standards?
    Answer. No, whether they follow GLP standards or not, the EPA has 
historically considered all scientifically reliable and relevant data. 
In the evaluation of all studies, the EPA makes a weight of evidence 
judgment, which involves evaluating the quality and robustness of each 
individual study. The study needs to be well-documented with respect to 
the methods used and the results, so an independent analysis and 
scientific review can be conducted. Greater weight is given to high-
quality and well-documented studies and those findings confirmed by 
multiple sources. As EPA evaluates each study it considers a variety of 
factors such as the study design, the dose response, the cohesiveness 
of results with results seen in other studies, and the current 
understanding of the mode of action of toxicity for the compound. 
Ultimately, EPA looks at all of the studies to decide what the 
preponderance of the data shows.
    Question. What new scientific studies led EPA to re-review Atrazine 
and who conducted the study?
    Answer. The EPA did not base its decision to formalize the re-
evaluation process on the results of any one study. Atrazine's re-
evaluation process has always been dynamic. Over the last 7 years since 
the 2003 Atrazine IRED was completed, significant Atrazine research has 
been done. Moreover, the EPA has received an extensive amount of 
drinking water and ambient surface water monitoring data from the 
registrants of Atrazine, as an ongoing condition of re-registration. 
With respect to environmental toxicology studies, the EPA has so far 
identified approximately 100 studies which are being considered in the 
2010 re-evaluation (www.regulations.gov, docket EPA-HQ-OPP-2010-0125-
0022). In addition, more than 40 epidemiology studies published since 
2004 are being considered as part of the 2010 re-evaluation. A subset 
of these epidemiology studies were included as a case study at the 
February 2010 SAP (www.regulations.gov, see docket number EPA-HQ-OPP-
2009-0851-0002). The remaining epidemiology studies will be included in 
subsequent SAP reviews.
    Given this significant body of new scientific information as well 
as the documented presence of Atrazine in both drinking water sources 
and other bodies of water, the EPA determined it appropriate to 
consider the new research and to ensure that our regulatory decisions 
about Atrazine protect public health.
    Question. Did EPA conduct internal data evaluation reviews of the 
new data prior to announcing the re-review?
    Answer. In the case of Atrazine, formal Data Evaluation Records 
were not generated. However, EPA determined these newer studies, 
warranted a closer look at the data to determine whether there are 
other health concerns not previously identified, whether our current 
understanding of how Atrazine produces its toxicity has changed and to 
re-evaluate the amount and duration of exposure that may lead to an 
impact human health. Reviews of these studies are being included as 
components of the 2010 SAP review. Given the amount of data the EPA is 
aware of since the IRED, internal review of data can occur rapidly to 
protect the public.
    Question. Were these studies conducted in compliance with EPA's GLP 
standards? If not, why isn't EPA following its own standards in 
reviewing scientific evidence?
    Answer. Since the most recent human health risk assessment in 2003, 
more than 100 new studies on a variety of scientific topics have been 
published (details provided above), of these only a small number (< 10) 
were conducted under GLP standards. In the case of the Atrazine review, 
sole reliance on GLP studies would require the EPA to ignore important 
information on the human health effects of Atrazine. EPA evaluates all 
available information from every source--whether from pesticide 
companies, other governments, or the published literature. The EPA 
utilizes a weight of evidence judgment which involves evaluating the 
quality and robustness of each individual study. Thus, when relying on 
GLP or non-GLP studies, the EPA adheres to its high standards of 
evaluating the integrity, quality, and robustness of the studies under 
consideration. A number of the new experimental toxicology studies were 
conducted at EPA's Office of Research and Development's (ORD) National 
Health and Environmental Effects Laboratory. ORD conducts research on 
environmental chemicals to ensure the strongest possible scientific 
basis for EPA risk assessments and risk management decisions. While ORD 
labs are not required to follow GLP procedures, they are required to 
conduct their research under the NHEERL Quality Management Plan (2005) 
which ensures that data generated are of the highest quality and fully 
transparent.

                      PESTICIDE REGISTRATION FEES

    Question. Administrator Jackson, the President's budget proposes a 
host of new fees on pesticide registrants, including the imposition of 
tolerance fees, enhanced registration service fees, and additional 
pesticide maintenance fees. Will the proposed fees be retained by the 
EPA, or returned to the Treasury?
    Answer. The administration's fee proposal would authorize EPA to 
collect fees beyond the current fee authorization, which expires at the 
end of fiscal year 2012. If authorized, the administration's proposal 
would direct increased receipts to the Department of Treasury and be 
subject to congressional appropriation with one exception: in fiscal 
year 2011 maintenance fee collections up to the current authorization 
amount will continue to be directed to the Reregistration and Expedited 
Processing Revolving Fund (Treasury Account Number 020-00-4310).
    Question. How will these fees increase the EPA's ability to review 
these products or to increase its efficiency in review of new 
registrations and the renewal of existing registrations?
    Answer. Proposed fee increases are intended to better align 
existing user fees with the full cost of direct services provided by 
the Federal Government to pesticide registrants. EPA expects the cost 
of reviewing new and existing pesticide registrations to increase in 
the future due to higher fixed costs (e.g., payroll and benefits) as 
well as the continued desire for more detailed screens on submissions, 
expedited data review, earlier feedback to applicants, and consultation 
and implementation of the Endangered Species Act with the Services.
    EPA intends to pursue further improvements to processing times with 
investments in helping registrants develop complete and error-free 
submissions through training events and by developing and implementing 
electronic application and review tools. The EPA's long-term goal is 
for registrants to apply electronically via the Web and for routine 
parts of the application or submission to be reviewed electronically, 
thereby reducing both amount of time and burden imposed on regulated 
entities to develop an application and for the EPA to reach a decision.
    Question. Does the EPA regard the Pesticide Registration 
Improvement Renewal Act as having been successful in ensuring that fees 
assessed to registrants are retained by the EPA to perform its duties 
and in providing the EPA with dedicated funding to expedite the review 
process?
    Answer. The Pesticide Registration Improvement Act and the 
Pesticide Registration Improvement Renewal Act specify how collected 
fee receipts will be used by EPA. Specifically, registration service 
fees are to be used by the EPA for the review and decisionmaking 
related to specific pesticide registration applications, including 
costs associated with salaries, contract employees, advisory 
committees, peer reviews, information management expenses, and 
collecting the registration service fees. EPA has used the resources 
consistent with the law.

                       CLIMATE PROTECTION PROGRAM

    Question. Administrator Jackson, the President's budget proposes 
funding in the Science and Technology, Climate Protection Program of 
$16.94 million for fiscal year 2011. This represents a $1.875 million 
reduction from the fiscal year 2010 appropriation.
    What impact will the reduction have on the laboratory's operations, 
particularly in the area of research and development?
    Answer. This $1.857 million reduction will have limited impact on 
the laboratory's operations. The funding request reflects a phase down 
of the Federal cost-share for California technology demonstration 
partnerships while retaining the traditional focus on development of 
advanced automotive technologies in support of the administration's 
goal to take action on climate change. The administration is also 
supporting the deployment of alternative and advanced vehicle 
technologies and providing opportunities for demonstration and 
commercialization through substantial resources provided by the 
American Recovery and Reinvestment Act for these activities in the 
Department of Energy.
    Question. As EPA contemplates additional regulation to curtail 
greenhouse gas emissions, what additional research is needed to achieve 
additional reductions in the following vehicle classes: Passenger 
vehicles, light trucks, medium-duty trucks, heavy-duty trucks.
    Answer. The Climate Protection Program, and specifically the Clean 
Automotive Technology Program, emphasizes research and collaboration 
with the automotive, trucking, and fleet industries. The Program will 
continue its focus to transfer the research advances of the hydraulic 
hybrid technology to the industry, and demonstrate the effectiveness of 
the high-efficiency, clean-combustion, gasoline, homogenous-charge 
compression ignition (HCCI) engine.
    However, analyses to inform regulatory decisions are conducted 
through a different program, namely the Federal Vehicles and Fuels 
Standards and Certification Program. In fiscal year 2011 the 
President's budget requests an increase of about $4 million to support 
additional needs for heavy-duty vehicle and engine greenhouse gas (GHG) 
standards and for initial analysis and technology assessment efforts 
needed to support potential development of GHG emission standards for 
other mobiles source categories. Additionally, the budget requests an 
additional $2 million to support promulgation of GHG standards for 
passenger vehicles, light-duty trucks, and medium-duty passenger 
vehicles.
    Question. Does the funding requested facilitate this research? If 
not, what additional resources would be required?
    Answer. Yes, the requested funding is adequate to achieve our 
highest-priority research goals.
    Question. What is the status of the commercialization of the 
hydraulic hybrid technology? Is this technology ready for deployment in 
fleet vehicles, medium and heavy-duty trucks and busses? If not, what 
additional research needs to be conducted? What additional resources 
are needed?
    Answer. EPA has been actively working with its broad mix of partner 
companies to demonstrate that its unique hydraulic hybrid technology 
works and that there are no fundamental technical barriers or road 
blocks that could prevent its commercialization.
    EPA has focused its initial technology transfer demonstrations on 
prototype series hydraulic hybrid technology in class 6 urban delivery 
vehicles such as UPS and FedEx trucks. These successful demonstrations 
have sparked some interest among the heavy fleet industry to purchase 
series hydraulic hybrid trucks, which spurred several of EPA's 
technology transfer partners to progress to the early stages of 
designing and building their first pre-production series hydraulic 
hybrid trucks.
    In fiscal year 2011, because of technical challenges of this 
patented EPA technology, the manufacturers require EPA's technical 
assistance, expertise and experience to get these vehicles operating 
effectively.
    In order for hydraulic hybrid technology to gain acceptance 
industry-wide, the program tries to leverage other projects to also 
demonstrate its application in other vehicles including shuttle buses 
(partnering with California's Air Resources Board and the South Coast 
Air Quality Management District) and nonroad trucks such as cargo 
handling equipment used in sea ports in California and the rest of the 
Nation.
    The core technology is ready for proof of concept demonstrations in 
commercial trucks (meaning there are technical improvements needed, but 
no technical barriers or road blocks that should prevent its 
commercialization), and commercial truck companies and suppliers are 
working with EPA in designing and developing their pre-production 
vehicles. Industry is now preparing to build its initial pre-production 
vehicles and will test them in various pilot commercial truck fleet 
trials during 2011 and 2012.
    The technology for delivery vehicles and shuttle bus applications 
is ready for initial field evaluations. Research is underway to 
overcome some application specific hurdles for other types of vehicles 
such as passenger cars and light trucks, including research to increase 
the efficiency of various hydraulic components, reduce their weight, 
reduce the ``hydraulic noise,'' and extend service intervals.
                                 ______
                                 
               Question Submitted by Senator Thad Cochran

              INORGANIC ARSENIC IMPACTS ON DRINKING WATER

    Question. Due to the consequences and implications of the 
Environmental Protection Agency's (EPA) Integrated Risk Information 
System assessment of inorganic arsenic on drinking water, agriculture 
practices, and the perceived safety of the food supply compliance, do 
you agree the EPA should extend the comment period by 30 days and 
include a broader peer review?
    Answer. EPA believes that this second review and the announced 
public comment period are appropriate and adequate. The EPA agrees that 
the public should be afforded an opportunity for review and comment on 
EPA's draft human health assessments, and that this review period 
should be of adequate length to ensure that the public's participation 
is full, transparent, and open. EPA also agrees that it should bring 
the best available science and scientific analyses to bear on such 
assessments.
    In 2005, EPA's draft human health assessment for carcinogenic 
effects of long-term exposure to inorganic arsenic was provided for 
public review and comment and the resulting public comments were made 
available to EPA's Science Advisory Board (SAB) as part of its 
independent external peer review. In June 2007, the SAB issued a final 
report, ``Advisory on EPA's Assessments of Carcinogenic Effects of 
Organic and Inorganic Arsenic: A Report of the US EPA Science Advisory 
Board.'' EPA then revised the draft assessment to address the 
recommendations and comments as part of the EPA's standard process for 
the development of human health assessments.
    EPA has now taken the extra step of requesting that the SAB conduct 
an evaluation of the EPA's interpretation and implementation of key 
recommendations included in the SAB's 2007 peer review report. This 
will act as a useful check to ensure that EPA is achieving our goal of 
having the best science inform this assessment.
    A 2-month public comment period on the EPA response to the SAB's 
2007 report was announced in the Federal Register on February 19, 2010. 
In accordance with EPA's peer review guidance, the SAB panel will be 
provided with the public comments submitted by the end of the announced 
public comment period. After the SAB's review is complete, EPA will 
finalize the assessment based on the public and expert comments and 
include it on the IRIS Web-based database.
                                 ______
                                 
            Questions Submitted by Senator Robert F. Bennett

            DEPARTMENT OF ENERGY (DOE) SMALL REFINERY STUDY

    Question. In the RFS II rulemaking, did Environmental Protection 
Agency (EPA) rely on the DOE small refinery study that Congress had 
determined to be unreliable and needed to be revised? If so, please 
justify such reliance.
    Answer. The criteria specified by statute (Clean Air Act section 
211(o)(9) for providing a further compliance extension to small 
refineries is a demonstration of ``disproportionate economic 
hardship.'' The statute provides that such hardship can be identified 
through the DOE study (CAA section 211(o)(9)(A)(ii)), or in individual 
petitions submitted to the Agency (CAA section 211(o)(9)(B)). However, 
the DOE study concluded that no disproportionate economic hardship 
exists, at least under current conditions and for the foreseeable 
future under RFS2. DOE had not revised its study, as requested by 
Congress, as of the time of the RFS2 rulemaking. Therefore, EPA had no 
basis under section 211(o)(9)(A)(ii) to extend the temporary exemption 
for small refiners but indicated that it could do so in the future on 
the basis of either a revised DOE study or in response to a petition 
under section 211(o)(9)(B).
    We are aware that there have been expressions of concern from 
Congress regarding the DOE study. Specifically, in Senate Report 111-
45, the Senate Appropriations Committee ``directed [DOE] to reopen and 
reassess the Small Refineries Exemption Study by June 30, 2010,'' 
noting a number of factors that the Committee intended that DOE 
consider in the revised study. The final Conference Report 111-278 to 
the Energy and Water Development Appropriations Act (H.R. 3183), 
referenced the language in the Senate Report, noting that the conferees 
``support the study requested by the Senate on RFS and expect the 
Department to undertake the requested economic review.'' At the time 
EPA issued the RFS2 rule, however, the DOE study had not been revised. 
If DOE prepares a revised study and the revised study finds that there 
is a disproportionate economic hardship, we will revisit the exemption 
extension in accordance with section 211(o)(9)(A)(ii).
    Question. Because DOE is currently revising the small refinery 
study, would you support extending the temporary exemption of small 
refineries from the RFS until a credible and valid study is completed 
and the facts surrounding the issue are actually known?
    Answer. EPA does not currently have authority to grant such an 
extension of the temporary exemption, since the statute states that 
such relief shall only be provided upon a demonstration of 
``disproportionate economic hardship''. As previously noted, if DOE 
prepares a revised study and the revised study finds that there is a 
disproportionate economic impact, we will revisit the exemption 
extension at that point in accordance with section 211(o)(9)(A)(ii). In 
addition, EPA is prepared to review and act on individual petitions for 
an extension of the temporary exemption on the basis of 
disproportionate economic hardship experienced by individual 
facilities.
    Question. Has EPA corresponded with DOE regarding this study since 
enactment of the Energy and Water Development and Related Agencies 
Appropriations Act, 2010? If so, please provide me with copies of that 
correspondence.
    Answer. We are working on assessing potential correspondence 
regarding DOE's Small Refinery Study and will respond further once we 
finish reviewing the relevant documents.
    Question. Is EPA participating with DOE in the revised small 
refinery study? If so, what is the status of that study?
    Answer. We anticipate that we will be coordinating with them as 
they move forward--in particular providing them with information 
related to the RFS standards and compliance issues.
                                 ______
                                 
              Questions Submitted by Senator Susan Collins

                          LONG CREEK WATERSHED

    Question. The Long Creek watershed near Portland, Maine is one of 
the first in the Nation being required to reduce nonpoint source 
pollution under the Clean Water Act. This will affect 110 landowners. 
The affected businesses, local government entities, and National 
Estuary Program (Casco Bay Estuary Partnership) have formed a nonprofit 
organization to help acquire grants and other funding to assist 
landowners with the cost of the clean up. I recently met with Regional 
Administrator Curt Spalding, who pledged to help with this unique 
project. Will you also work with the Long Creek watershed groups and my 
office to identify EPA funding that could help landowners meet their 
Clean Water Act obligations?
    Answer. Yes, the Environmental Protection Agency (EPA) will work 
with Long Creek watershed groups to help them identify funding for the 
landowners required to reduce stormwater pollution under the residual 
designation. While EPA's State Revolving Fund is the most likely source 
of funds for small business owners who need assistance to comply with 
National Permit Discharge Elimination System permit requirements, other 
Federal and State funds may also be available. EPA is prepared to work 
with your office to assist the landowners in identifying various 
funding sources.

                                MERCURY

    Question. I have long believed that we, as a Nation, are not paying 
sufficient attention to the dangers posed by mercury to our children 
and, in general, to all of our citizens. When I have spoken to experts 
in Maine about this problem I have learned that each new scientific 
study finds more mercury in the environment and more affected species 
than the previous study. In 2006, when EPA released a major new mercury 
regulatory rule, its Inspector General found that data for mercury 
pollution models was severely lacking and recommended EPA implement a 
national mercury monitoring network. Last year, to address this need 
for better data, I and Senator Carper introduced the Comprehensive 
National Mercury Monitoring Act to ensure that we have the information 
we need to make decisions necessary to protect our people and 
environment. Do you support implementing a National Mercury Monitory 
Network? What specific steps will the EPA take in the coming year to 
protect us against this persistent and dangerous neurotoxin?
    Answer. EPA recognizes the value in comprehensive, long-term 
mercury monitoring data and has made significant and tangible progress 
toward collecting national mercury monitoring data. Mercury is a 
complex and multi-faceted issue that is present in all media, including 
air, water, sediments, fish, and wildlife. EPA is collaborating with 
Federal, State, and tribal agencies, and academic partners to provide a 
comprehensive understanding of mercury in the environment using 
existing data, monitoring capabilities, and resources. EPA has convened 
workshops to discuss the design of a comprehensive national mercury 
monitoring program.
  --In 2003, EPA co-sponsored a workshop with the Society for 
        Environmental Toxicology and Chemistry to develop a national-
        scale program to monitor changes in mercury levels in the 
        environment resulting from anticipated mercury emissions 
        reductions in the United States. The workshop recommended a set 
        of environmental measurements and indicators, EPA is evaluating 
        these recommendations.
  --In 2008, EPA co-convened a follow-up workshop with experts from 
        USGS, NOAA, USFWS, NPS, State and tribal agencies, the 
        BioDiversity Research Institute, the National Atmospheric 
        Deposition Program, industry, academic institutions, and 
        Environment Canada. Workshop participants agreed on a goal and 
        major design elements for a national mercury monitoring 
        program, EPA is evaluating these recommendations.
  --Since 2008, EPA and its partners have achieved significant progress 
        in developing new mercury monitoring and assessment capacity, 
        including the National Atmospheric Deposition Program's newly 
        established North American network that monitors atmospheric 
        concentrations of mercury at 20 sites throughout the United 
        States and Canada, and collaborative efforts to develop common 
        databases of multi-media mercury concentrations for the Great 
        Lakes Region that can be merged with existing databases from 
        the Northeastern United States and Eastern Canada.
    Mercury emissions have declined substantially in the United States 
since 1990 through regulatory and nonregulatory measures. Total 
estimated mercury emissions were reduced from about 246 tons in 1990 to 
103 tons by 2005, about a 58 percent reduction, largely due to 
reductions from municipal waste combustors and medical waste 
incinerators, but also due to reductions from other sectors, such as 
chlor-alkali production plants. Moreover, reductions are currently 
being achieved from the steel industry through the National Vehicle 
Mercury Switch Recovery Program and a 2007 National Emissions Standard 
for electric arc furnaces at steel mills, as well as hazardous waste 
combustion units. EPA is also in the process of developing revised 
standards for Portland Cement Kilns, Industrial/Commercial/
Institutional Boilers and Process Heaters, and Commercial and 
Industrial Solid Waste Incineration units. In 2011, EPA plans to 
continue progress with reducing mercury emissions and continuing its 
progress in significantly reducing exposures to mercury by 2015.

                          SUBCOMMITTEE RECESS

    Senator Feinstein. I believe that concludes the hearing for 
today. So we will stand recessed.
    [Whereupon, at 11:13 a.m., Wednesday, March 3, the 
subcommittee was recessed, to reconvene subject to the call of 
the Chair.]

</pre></body></html>
